     Department of Homeland Security
     2IÀFH RI ,QVSHFWRU *HQHUDO

           Effects of a Security Lapse on
       FPS' Michigan Guard Services Contract
                     (Redacted)




OIG-12-100 (Revised)                    August 2012
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov

                                    August 31, 2012


MEMORANDUM FOR:               L. Eric Patterson
                              Director
                              Federal Protective Service

FROM:                         Deborah Outten-Mills
                              Acting Assistant Inspector General for Inspections

SUBJECT:                      Re-Issuance of Inspection Report OIG-12-100, Effects of a
                              Security Lapse on FPS’ Michigan Guard Services Contract


I am writing to inform you that the Department of Homeland Security Office of
Inspector General (OIG) has recalled the subject report and is now re-issuing it to modify
the statement of compliance with Quality Standards for Inspections (QSI). We took
these actions because it recently came to our attention that a family member of a senior
OIG official was employed by an entity associated with this inspection.

To ensure that this impairment to our independence in appearance did not affect our
findings and conclusions, we thoroughly re-reviewed our work on this inspection, as well
as the results. Through this re-review, we verified that the impairment did not affect
our results; our evidence is sound and fully supports our findings and conclusions.
Therefore, we are re-issuing this report and re-posting it on our website. The report is
unchanged except for the statement of compliance with QSI found on page 22 in
Appendix A – Purpose, Scope, and Methodology.

We remain committed to assisting the Department in improving its effectiveness and
efficiency to better carry out its mission, and we appreciate your support of our work.
Please do not hesitate to call me at (202) 254-4015 if you have any questions or
concerns, or your staff may contact William McCarron, Chief Inspector, at
(202) 254- 4206.

Attachment
August 31, 2012
Table of Contents/Abbreviations
([HFXWLYH 6XPPDU\ 

%DFNJURXQG 

5HVXOWV RI 5HYLHZ 

     '(&2 %UHDFKHG ,WV &RQWUDFW :LWK )36 :KHQ *XDUGV 'LG 1RW 3URSHUO\
      5HVSRQG WR D 6XVSLFLRXV 3DFNDJH 

     )36 DQG '(&2 0LVVWHSV $OORZHG WKH ,(' 7R *R 8QLGHQWLILHG IRU  'D\V 
     5HFRPPHQGDWLRQ 
     0DQDJHPHQW &RPPHQWV DQG 2,* $QDO\VLV 

     )36 $FFHSWHG '(&2¶V &RUUHFWLYH $FWLRQ 3ODQ 

     &RQWLQXLQJ WKH &RQWUDFW :DV $GYDQWDJHRXV IRU WKH *RYHUQPHQW 
     5HFRPPHQGDWLRQV 
     0DQDJHPHQW &RPPHQWV DQG 2,* $QDO\VLV 

     )36 5DWHG '(&2¶V 3HUIRUPDQFH DV                                                           

     )36 ,QWHQGV 7R 6ROLFLW D 1HZ &RQWUDFW LQ )LVFDO <HDU 

Appendices
     $SSHQGL[ $           3XUSRVH 6FRSH DQG 0HWKRGRORJ\
     $SSHQGL[ %           0DQDJHPHQW &RPPHQWV WR WKH 'UDIW 5HSRUW 
     $SSHQGL[ &           7LPHOLQH RI (YHQWV
     $SSHQGL[ '           %UHDFKHV DV /LVWHG LQ )36¶ /HWWHU RI &RQFHUQ 
     $SSHQGL[ (           'LVFLSOLQH 7KDW 5HVXOWHG )URP WKH ,(' ,QFLGHQW 
     $SSHQGL[ )           0DMRU &RQWULEXWRUV WR WKLV 5HSRUW
     $SSHQGL[ *           5HSRUW 'LVWULEXWLRQ 

Abbreviations
     &275                  FRQWUDFWLQJ RIILFHU¶V WHFKQLFDO UHSUHVHQWDWLYH
     '+6                   'HSDUWPHQW RI +RPHODQG 6HFXULW\
     )36                   )HGHUDO 3URWHFWLYH 6HUYLFH
     )<                    ILVFDO \HDU
     *6$                   *HQHUDO 6HUYLFHV $GPLQLVWUDWLRQ
     ,('                   LPSURYLVHG H[SORVLYH GHYLFH
     133'                  1DWLRQDO 3URWHFWLRQ DQG 3URJUDPV 'LUHFWRUDWH
     62:                   VWDWHPHQW RI ZRUN
2,*
Department of Homeland Security
Office of Inspector General

Executive Summary
                   2Q )HEUXDU\   D SHUVRQ SODFHG D EDJ FRQWDLQLQJ DQ
                   LPSURYLVHG H[SORVLYH GHYLFH RXWVLGH WKH 3DWULFN 9 0F1DPDUD
                   )HGHUDO %XLOGLQJ LQ 'HWURLW 0LFKLJDQ $ JXDUG KLUHG E\ '(&2
                   ,QF ZKLFK LV XQGHU FRQWUDFW ZLWK WKH )HGHUDO 3URWHFWLYH 6HUYLFH WR
                   SURYLGH VHFXULW\ IRU WKH EXLOGLQJ EURXJKW WKH EDJ LQWR WKH IDFLOLW\
                   DQG SODFHG LW XQGHU D VFUHHQLQJ FRQVROH 7KH LPSURYLVHG H[SORVLYH
                   GHYLFH LQVLGH WKH EDJ ZDV QRW LGHQWLILHG XQWLO 0DUFK   
                   GD\V DIWHU WKH EDJ¶V GLVFRYHU\ 5HSUHVHQWDWLYH %HQQLH *
                   7KRPSVRQ DVNHG XV WR UHYLHZ '(&2¶V DFWLRQV DQG GHWHUPLQH
                   ZKHWKHU LW EUHDFKHG LWV FRQWUDFW ZKHQ LWV JXDUGV GLG QRW SURSHUO\
                   KDQGOH WKH LPSURYLVHG H[SORVLYH GHYLFH DQG ZKHWKHU '(&2¶V
                   SHUIRUPDQFH KDV EHHQ VXIILFLHQWO\ UHPHGLHG

                   :H GHWHUPLQHG WKDW '(&2 EUHDFKHG VHYHUDO SURYLVLRQV RI WKH
                   FRQWUDFW¶V VWDWHPHQW RI ZRUN DQG RQH SRVW¶V RUGHUV 7KHVH EUHDFKHV
                   ZHUH WKH UHVXOW RI SRRU MXGJPHQW RQ WKH SDUW RI D JXDUG QRW
                   V\VWHPLF SUREOHPV ZLWKLQ '(&2 :H DOVR GHWHUPLQHG WKDW WKH
                   )HGHUDO 3URWHFWLYH 6HUYLFH EHDUV VRPH UHVSRQVLELOLW\ IRU WKH EDJ
                   FRQWDLQLQJ WKH LPSURYLVHG H[SORVLYH GHYLFH UHPDLQLQJ LQ WKH
                   EXLOGLQJ IRU  GD\V

                   )ROORZLQJ WKH LQFLGHQW '(&2 LPSOHPHQWHG D FRUUHFWLYH DFWLRQ
                   SODQ WKDW ZDV DFFHSWDEOH WR WKH )HGHUDO 3URWHFWLYH 6HUYLFH 8SRQ
                   DFFHSWDQFH RI '(&2¶V FRUUHFWLYH DFWLRQ SODQ DQG PLQGIXO RI LWV
                   FRQWUDFWXDO REOLJDWLRQV WKH )HGHUDO 3URWHFWLYH 6HUYLFH GHFLGHG WR
                   FRQWLQXH WKH FRQWUDFW DQG PRQLWRU WKH FRPSDQ\¶V SHUIRUPDQFH
                   7KH )HGHUDO 3URWHFWLYH 6HUYLFH¶V GHFLVLRQ WR FRQWLQXH WKH FRQWUDFW
                   ZLWK '(&2 ZDV DGYDQWDJHRXV IRU WKH *RYHUQPHQW 7KH )HGHUDO
                   3URWHFWLYH 6HUYLFH LV FXUUHQWO\ H[WHQGLQJ WKH FRQWUDFW LQ  PRQWK
                   LQFUHPHQWV DQG SODQQLQJ WR VROLFLW D QHZ FRQWUDFW IRU JXDUG
                   VHUYLFHV LQ 0LFKLJDQ

                   :H LGHQWLILHG LVVXHV ZDUUDQWLQJ PDQDJHPHQW¶V DWWHQWLRQ
                   FRQFHUQLQJ GHILFLHQFLHV LQ SRVW LQVSHFWLRQV JXDUG WUDLQLQJ DQG WKH
                   VXLWDELOLW\ SURJUDP :H DUH PDNLQJ IRXU UHFRPPHQGDWLRQV WR KHOS
                   WKH )HGHUDO 3URWHFWLYH 6HUYLFH LPSURYH LWV RSHUDWLRQV




            Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                          Page 1
Background
                             7KH PLVVLRQ RI WKH )HGHUDO 3URWHFWLYH 6HUYLFH )36 LV WR UHQGHU
                             PRUH WKDQ  )HGHUDO IDFLOLWLHV RZQHG RU OHDVHG E\ WKH *HQHUDO
                             6HUYLFHV $GPLQLVWUDWLRQ *6$ VDIH DQG VHFXUH IRU )HGHUDO
                             HPSOR\HHV RIILFLDOV DQG YLVLWRUV )36 HPSOR\V  )HGHUDO
                             VWDII LQFOXGLQJ YDULRXV ODZ HQIRUFHPHQW DQG VXSSRUW SHUVRQQHO
                             DQG XWLOL]HV  FRQWUDFW VHFXULW\ JXDUGV 7KH Homeland
                             Security Act of 2002 DV DPHQGHG WUDQVIHUUHG )36 IURP *6$ WR
                             WKH 'HSDUWPHQW RI +RPHODQG 6HFXULW\ '+6 ,Q 2FWREHU 
                             '+6 PRYHG )36 IURP 86 ,PPLJUDWLRQ DQG &XVWRPV
                             (QIRUFHPHQW WR LWV 1DWLRQDO 3URWHFWLRQ DQG 3URJUDPV 'LUHFWRUDWH
                             133'

                             *XDUG VHUYLFHV DUH RQH RI )36¶ ODUJHVW H[SHQGLWXUHV ,Q ILVFDO \HDU
                             )<  )36 VSHQW  PLOOLRQ WR SURFXUH JXDUG VHUYLFHV
                             *XDUG UHVSRQVLELOLWLHV LQFOXGH )HGHUDO EXLOGLQJ DFFHVV FRQWURO
                             HPSOR\HH DQG YLVLWRU LGHQWLILFDWLRQ FKHFNV VHFXULW\ HTXLSPHQW
                             PRQLWRULQJ DQG URYLQJ SDWUROV RI WKH LQWHULRU DQG H[WHULRU RI
                             )HGHUDO EXLOGLQJV

                             2Q )HEUXDU\   D SHUVRQ SODFHG D EDJ RXWVLGH WKH 3DWULFN 9
                             0F1DPDUD )HGHUDO %XLOGLQJ LQ 'HWURLW 0LFKLJDQ 7KLV EDJ
                             FRQWDLQHG D VDIH ZLWK DQ LPSURYLVHG H[SORVLYH GHYLFH ,(' LQVLGH
                             $ JXDUG ZKR ZDV LQIRUPHG RI WKH EDJ¶V SUHVHQFH EURXJKW WKH EDJ
                             LQWR WKH IDFLOLW\ DQG SODFHG LW XQGHU D VHFXULW\ FRQVROH VHH ILJXUH 
                             7KH VHFXULW\ FRQVROH LV XVHG WR PRQLWRU WKH IDFLOLW\¶V FORVHGFLUFXLW
                             WHOHYLVLRQ HOHYDWRUV DQG                              DQG LV WKH
                             ORFDWLRQ RI                                      7KH ,(' LQVLGH WKH
                             EDJ ZDV QRW LGHQWLILHG XQWLO 0DUFK    GD\V DIWHU WKH
                             EDJ¶V GLVFRYHU\  $OWKRXJK WKH ,(' GLG QRW H[SORGH LW UHSUHVHQWHG
                             D VHULRXV ULVN WR WKH VDIHW\ DQG VHFXULW\ RI WKH EXLOGLQJ DQG LWV
                             RFFXSDQWV





    6HH DSSHQGL[ & IRU D WLPHOLQH RI HYHQWV


                      Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                                    Page 2
                      Figure 1: The IED was stored under the console, on a safe (not shown).




                    7KH JXDUGV DW WKH 0F1DPDUD %XLOGLQJ ZRUN IRU '(&2 ,QF
                    ZKLFK LV XQGHU FRQWUDFW ZLWK )36 WR SURYLGH JXDUG VHUYLFHV DW DOO
                    *6$RZQHG RU OHDVHG )HGHUDO IDFLOLWLHV LQ 0LFKLJDQ '(&2
                    SURYLGHV D YDULHW\ RI VHFXULW\ VHUYLFHV WKURXJK WKH XVH RI DUPHG
                    DQG XQDUPHG JXDUGV 7KH 0LFKLJDQ FRQWUDFW UHTXLUHV DUPHG
                    JXDUGV RQO\ )36¶ $FTXLVLWLRQV 'LYLVLRQ DZDUGHG WKH FRQWUDFW WR
                    '(&2 LQ -XQH  ,W LQFOXGHG D EDVH \HDU DQG  RUGHULQJ
                    SHULRGV RI D \HDU HDFK IRU D WRWDO YDOXH RI  PLOOLRQ '(&2
                    HPSOR\V DQ HVWLPDWHG  JXDUGV DQG VXSHUYLVRUV WR SURYLGH JXDUG
                    VHUYLFHV IRU  *6$RZQHG RU OHDVHG EXLOGLQJV XQGHU WKH FRQWUDFW
                    '(&2 KDV VHYHQ FRQWUDFWV ZLWK )36 ZLWK DQ DQQXDO FRPELQHG YDOXH
                    RI  PLOOLRQ ,W LV )36¶ IRXUWKODUJHVW SURYLGHU RI JXDUG
                    VHUYLFHV

Results of Review
     '(&2 FRPPLWWHG PXOWLSOH EUHDFKHV RI LWV FRQWUDFW ZLWK )36 WR SURYLGH JXDUG
     VHUYLFHV DW DOO )HGHUDO IDFLOLWLHV LQ 0LFKLJDQ ZKHQ RQH RI LWV JXDUGV GLG QRW
     SURSHUO\ KDQGOH D EDJ FRQWDLQLQJ DQ ,(' DW WKH 0F1DPDUD %XLOGLQJ 7KH
     EUHDFKHV ZHUH WKH UHVXOW RI SRRU MXGJPHQW E\ WKH JXDUG QRW V\VWHPLF SUREOHPV
     ZLWKLQ '(&2 )36 DOVR EHDUV VRPH UHVSRQVLELOLW\ IRU WKH EDJ WKDW FRQWDLQHG WKH
     ,(' UHPDLQLQJ LQ WKH EXLOGLQJ IRU  GD\V

     )ROORZLQJ WKH LQFLGHQW '(&2 GHYLVHG D FRUUHFWLYH DFWLRQ SODQ WKDW )36 GHHPHG
     DFFHSWDEOH 7DNLQJ LQWR DFFRXQW '(&2¶V RYHUDOO SHUIRUPDQFH DQG FRUUHFWLYH
     DFWLRQV )36 GHFLGHG WR FRQWLQXH RUGHULQJ JXDUG VHUYLFHV IURP WKH FRPSDQ\
     )36¶ GHFLVLRQ WR FRQWLQXH WKH FRQWUDFW ZLWK '(&2 ZDV DGYDQWDJHRXV IRU WKH
     *RYHUQPHQW )36 KDV EHHQ H[WHQGLQJ WKH FRQWUDFW LQ  PRQWK LQFUHPHQWV ZKLFK
     DOORZV LW WR UHDVVHVV WKH FRQWUDFWRU¶V SHUIRUPDQFH HYHU\  PRQWKV DQG VWRS
     RUGHULQJ JXDUG VHUYLFHV VKRXOG SHUIRUPDQFH LVVXHV DULVH $GGLWLRQDOO\ )36 UDWHG


             Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                            Page 3
        '(&2¶V SHUIRUPDQFH IURP -XO\  WKURXJK -XQH  DV
            )36 KDV DQQRXQFHG LWV SODQV WR VROLFLW D QHZ FRQWUDFW LQ )< 

        :H LGHQWLILHG LVVXHV ZDUUDQWLQJ PDQDJHPHQW¶V DWWHQWLRQ FRQFHUQLQJ GHILFLHQFLHV
        LQ SRVW LQVSHFWLRQV JXDUG WUDLQLQJ DQG WKH VXLWDELOLW\ SURJUDP :H DUH PDNLQJ
        IRXU UHFRPPHQGDWLRQV WR KHOS )36 LPSURYH LWV RSHUDWLRQV

        DECO Breached Its Contract With FPS When Guards Did Not
        Properly Respond to a Suspicious Package
                 :KHQ WKH JXDUG EURXJKW WKH EDJ FRQWDLQLQJ WKH ,(' LQWR WKH 0F1DPDUD
                 %XLOGLQJ '(&2 EHFDPH OLDEOH IRU EUHDFKLQJ VL[ SURYLVLRQV  RI WKH
                 FRQWUDFW¶V VWDWHPHQW RI ZRUN 62: DQG RQH SRVW¶V RUGHUV  7KH JXDUG¶V
                 DFWLRQV ZHUH VHULRXV EUHDFKHV WKDW FDQQRW EH FRPSDUHG HDVLO\ WR RWKHU
                 EUHDFKHV E\ WKLV FRPSDQ\ RU RWKHU JXDUG VHUYLFH FRPSDQLHV EHFDXVH WKHUH
                 LV OLWWOH SUHFHGHQW $FFRUGLQJ WR )36 W\SLFDO LQFLGHQWV LQFOXGH XQLIRUP
                 YLRODWLRQV DQG D ODFN RI NQRZOHGJH RI SRVW RUGHU HOHPHQWV

                          Poor Judgment Led a Guard To Bring the IED into the
                          McNamara Building

                          $FFRUGLQJ WR )36 DQG '(&2 RIILFLDOV WKH JXDUG¶V SRRU MXGJPHQW
                          FDXVHG KLP WR EULQJ WKH ,(' LQWR WKH 0F1DPDUD %XLOGLQJ 7KH
                          JXDUG PLVLGHQWLILHG WKH EDJ DV IRXQG SURSHUW\ DQG QHYHU WUHDWHG LW
                          DV VXVSLFLRXV GHVSLWH QRW NQRZLQJ LWV FRQWHQWV $FFRUGLQJ WR
                          '(&2 WKH JXDUG WUHDWHG WKH EDJ DV IRXQG SURSHUW\ EHFDXVH LW
                          UHVHPEOHG
                                          ,W LV XQFOHDU ZKHWKHU WKH EDJ FRQWDLQHG            
                          7KH JXDUG WKRXJKW D                        DFFLGHQWDOO\ OHIW WKH EDJ
                          XQDWWHQGHG 7KHUH ZDV
                                   DW WKH WLPH WKH JXDUG UHWULHYHG WKH EDJ FRQWDLQLQJ WKH ,('

                          )36 DQG '(&2 RIILFLDOV KDG QR UHDVRQ WR GRXEW WKH JXDUG¶V DELOLW\
                          WR LGHQWLI\ D VXVSLFLRXV LWHP 7KH JXDUG UHFHLYHG UHIUHVKHU WUDLQLQJ
                          LQ 1RYHPEHU  PRQWKV EHIRUH WKH LQFLGHQW 7KLV WUDLQLQJ
                          FRYHUHG SURFHGXUHV IRU GHWHFWLQJ DQG KDQGOLQJ VXVSLFLRXV LWHPV
                          6HYHUDO '(&2 RIILFLDOV SRLQWHG RXW WKDW WKH JXDUG ZDV DOVR D
                          VHUJHDQW LQ WKH 'HWURLW 3ROLFH 'HSDUWPHQW DQG VKRXOG KDYH NQRZQ
                          KRZ WR UHVSRQG WR WKH EDJ 7KH JXDUG KDG DOVR UHFHLYHG WZR
                          FRPPHQGDWLRQV RQH IRU LGHQWLI\LQJ D VXVSHFW IRU DUUHVW 2QH )36
                          RIILFLDO IDPLOLDU ZLWK WKH JXDUG DVVHUWHG WKDW KH ZDV RQH RI WKH EHVW

 6HH DSSHQGL[ ' IRU D GHVFULSWLRQ RI EUHDFKHV

 3RVW RUGHUV DUH SUHSDUHG E\ )36 IRU DOO VKLIWV RQ HDFK SRVW LQ )HGHUDO IDFLOLWLHV 3RVW RUGHUV GHILQH WKH
VSHFLILF GXWLHV WKDW JXDUGV PXVW SHUIRUP *XDUGV PXVW QRW GHYLDWH IURP WKH GLUHFWLRQV SURYLGHG LQ WKH SRVW
RUGHUV H[FHSW LQ HPHUJHQFLHV RU DV GLUHFWHG E\ WKH FRQWUDFWLQJ RIILFHU¶V WHFKQLFDO UHSUHVHQWDWLYH &275


                   Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                                  Page 4
                          JXDUGV LQ WKH 0F1DPDUD %XLOGLQJ

                          The Guard’s Actions Constituted Breaches of the Contract

                          2Q 0DUFK    GD\V DIWHU WKH ,(' ZDV GLVFRYHUHG )36¶
                          $FTXLVLWLRQ 'LYLVLRQ QRWLILHG '(&2 YLD D OHWWHU RI FRQFHUQ WKDW WKH
                          ,(' LQFLGHQW UHSUHVHQWHG D EUHDFK RI LWV FRQWUDFW :H FRPSDUHG
                          WKH GHWDLOV RI WKH EDJ¶V UHWULHYDO WR WKH OHWWHU RI FRQFHUQ 62: DQG
                          WKH SRVW¶V RUGHUV WR GHWHUPLQH ZKDW EUHDFKHV KDG RFFXUUHG

                          :KHQ WKH JXDUG EURXJKW WKH ,(' LQWR WKH 0F1DPDUD %XLOGLQJ KH
                          EUHDFKHG WKH FRQWUDFW EHFDXVH DFFRUGLQJ WR WKH SRVW¶V RUGHUV KH
                          VKRXOG KDYH DYRLGHG FRQWDFW ZLWK WKH EDJ DQG FRUGRQHG RII WKH
                          DUHD VXUURXQGLQJ LW $GGLWLRQDOO\ WKH JXDUG EUHDFKHG WKH 62:
                          EHFDXVH KLV DVVHVVPHQW WKDW WKH EDJ ZDV IRXQG SURSHUW\ LQGLFDWHV
                          WKDW KH GLG QRW SURSHUO\ REVHUYH KLV HQYLURQPHQW

                          7KH JXDUG DOVR YLRODWHG WKH SRVW¶V RUGHUV ZKHQ KH GLG QRW IROORZ
                          SURSHU QRWLILFDWLRQ SURFHGXUHV 3RVW RUGHUV VWDWH WKDW JXDUGV ZLOO
                          LPPHGLDWHO\ QRWLI\ WKH %DWWOH &UHHN 0HJD&HQWHU RI DOO RIIHQVHV
                          DQG LQFLGHQWV  7KH JXDUG GLG QRW QRWLI\ WKH %DWWOH &UHHN
                          0HJD&HQWHU ,QVWHDG KH SUHSDUHG DQ LQFLGHQW UHSRUW WKDW GHVFULEHG
                          WKH EDJ DV IRXQG SURSHUW\ ,Q DGGLWLRQ WKH JXDUG XVHG DQ RXWGDWHG
                          UHSRUW IRUP $ VHFRQG JXDUG ZKR UHOLHYHG WKH ILUVW RIIHUHG WR
                          FRPSOHWH DQRWKHU LQFLGHQW UHSRUW RQ WKH FRUUHFW IRUP +H GLG QRW
                          FRQWDFW WKH %DWWOH &UHHN 0HJD&HQWHU XQWLO VHYHUDO KRXUV ODWHU DQG
                          ZKHQ KH GLG KH DOVR UHSRUWHG WKH EDJ DV IRXQG SURSHUW\ $FFRUGLQJ
                          WR '(&2 WKH VHFRQG JXDUG VDLG WKDW KH EHOLHYHG WKDW WKH EDJ ZDV
                          IRXQG SURSHUW\ DQG WKDW KH VKRXOG QRW KDYH DVVXPHG WKDW WKH JXDUG
                          ZKR UHWULHYHG WKH EDJ KDG IROORZHG SURSHU SURFHGXUHV

                          %DVHG RQ LWV NQRZOHGJH RI HYHQWV )36 EHOLHYHV WKDW WKH JXDUG ZKR
                          EURXJKW WKH ,(' LQWR WKH 0F1DPDUD %XLOGLQJ DOVR YLRODWHG WKH
                          SRVW¶V RUGHUV EHFDXVH KH OHIW KLV IL[HG SRVW ZLWKRXW EHLQJ UHOLHYHG
                          +RZHYHU WKH JXDUG¶V VXSHUYLVRU VDW DW KLV SRVW ZKLOH KH UHWULHYHG
                          WKH EDJ DQG WKHUHIRUH WKLV ZDV QRW D EUHDFK 7KLV VXSHUYLVRU DOVR
                          LQVWUXFWHG WKH JXDUG WR ZULWH D UHSRUW LI QR RQH FODLPHG WKH EDJ E\
                          WKH HQG RI KLV VKLIW





 )36 KDV IRXU 0HJD&HQWHUV WKDW PRQLWRU PXOWLSOH W\SHV RI DODUP V\VWHPV DQG FORVHGFLUFXLW WHOHYLVLRQ DQG
SURYLGH ZLUHOHVV GLVSDWFK FRPPXQLFDWLRQV IRU )36 RIILFHUV WKURXJKRXW WKH 1DWLRQ  KRXUV D GD\  GD\V D
ZHHN 7KH %DWWOH &UHHN 0HJD&HQWHU PRQLWRUV WKH 0F1DPDUD %XLOGLQJ DPRQJ RWKHUV


                   Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                                 Page 5
FPS and DECO Missteps Allowed the IED To Go Unidentified for
21 Days
     7KH EDJ FRQWDLQLQJ WKH ,(' ZDV VWRUHG XQGHU WKH VHFXULW\ FRQVROH LQ WKH
     VRXWK OREE\ RI WKH 0F1DPDUD %XLOGLQJ IRU  GD\V 'XULQJ WKLV WLPH )36
     DQG '(&2 SHUVRQQHO PLVVHG VHYHUDO RSSRUWXQLWLHV WR LGHQWLI\ WKH ,('
     7KH ,(' ZDV QRW LGHQWLILHG TXLFNO\ EHFDXVH VFUHHQLQJ DWWHPSWV ZHUH
     XQVXFFHVVIXO SURFHGXUHV IRU KDQGOLQJ IRXQG SURSHUW\ ZHUH XQFOHDU DQG
     )36 SRVW LQVSHFWLRQV GLG QRW LGHQWLI\ XQDXWKRUL]HG LWHPV DW WKH SRVW

             Attempts To Identify the Contents of the Bag Were
             Unsuccessful

             *XDUGV WULHG XQVXFFHVVIXOO\ WR LGHQWLI\ WKH FRQWHQWV RI WKH EDJ
             VHYHUDO WLPHV ZKLOH WKH ,(' ZDV VWRUHG ZLWKLQ WKH 0F1DPDUD
             %XLOGLQJ 7KHVH DWWHPSWV LQFOXGHG YLVXDO LQVSHFWLRQV RI WKH EDJ¶V
             LQWHULRU VKDNLQJ DQG PRYLQJ WKH PHWDO VDIH LQVLGH WKH EDJ WKDW
             FRQWDLQHG WKH ,(' DQG VFUHHQLQJ WKH EDJ ZLWK DQ [UD\ PDFKLQH
             'XULQJ WKHVH DWWHPSWV ERWK JXDUGV DQG VXSHUYLVRUV LQFRUUHFWO\
             LGHQWLILHG WKH EDJ¶V FRQWHQWV DV D JXQ VDIH D VDIH DQG LQ WKH FDVH
             RI WKH [UD\ VFUHHQLQJ                          *XDUGV LQ WKH
             0F1DPDUD %XLOGLQJ ZHUH XVLQJ                                   WKDW
             WKH\ ZHUH QRW WUDLQHG WR RSHUDWH :H GLVFXVV WUDLQLQJ GHILFLHQFLHV
             ODWHU LQ WKH UHSRUW

             2Q 0DUFK   WZR JXDUGV EHFDPH VXVSLFLRXV DERXW WKH EDJ
             DQG VFUHHQHG LW :KHQ WKH\ FRXOG QRW LGHQWLI\ WKH EDJ¶V FRQWHQWV
             WKH\ QRWLILHG DQ )36 ,QVSHFWRU 7KH ,QVSHFWRU GHWHUPLQHG WKDW WKH
             EDJ SRVVLEO\ FRQWDLQHG DQ ,(' DQG WRRN WKH DSSURSULDWH DFWLRQV

             Found Property Procedures Were Unclear

             7KH VDPH GD\ WKDW D JXDUG EURXJKW WKH EDJ FRQWDLQLQJ WKH ,(' LQWR
             WKH 0F1DPDUD %XLOGLQJ DQRWKHU JXDUG UHSRUWHG WKH EDJ DV IRXQG
             SURSHUW\ WR )36¶ %DWWOH &UHHN 0HJD&HQWHU ,Q WKH UHSRUW WKH
             JXDUG GHVFULEHG LW DV ³D FDQYDV KXVN\ EDJ FRQWDLQLQJ D 6HQWU\
             VDIH´ $Q )36 ,QVSHFWRU VLJQHG WKH UHSRUW  GD\V ODWHU +RZHYHU
             )36 DQG '(&2 RIILFLDOV GLG QRW H[DPLQH WKH EDJ RU PRYH LW WR D
             SHUPDQHQW VWRUDJH ORFDWLRQ 7KH ,QVSHFWRU ZKR VLJQHG WKH UHSRUW
             VDLG WKDW WKHUH ZDV QR UHDVRQ RU SURFHGXUH UHTXLULQJ WKDW KH RU
             DQRWKHU )36 RIILFLDO VHH WKH EDJ LW ZDV QRW XQFRPPRQ IRU
                                                     

             6HYHUDO JXDUGV ZKR REVHUYHG WKH EDJ RYHU WKH  GD\V GLG QRW
             FRQVLGHU WKH EDJ VXVSLFLRXV EHFDXVH LW ZDV ORFDWHG XQGHU WKH


      Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                    Page 6
       VHFXULW\ FRQVROH *XDUGV XVHG WKH DUHD XQGHU WKH FRQVROH WR VWRUH
       IRXQG SURSHUW\ RU WKHLU SHUVRQDO EHORQJLQJV $GGLWLRQDOO\ D
       '(&2 VHUJHDQW DVNHG D                             WR VHH ZKHWKHU
                                          KDG ORVW D EDJ 7KLV VHUJHDQW
       GLG QRW IROORZ XS RQ WKH LQTXLU\ WR GHWHUPLQH LI WKH EDJ EHORQJHG
       WR                                    

       $FFRUGLQJ WR DQ )36 ,QVSHFWRU ZKR LV DOVR WKH 0F1DPDUD
       %XLOGLQJ¶V IRXQG SURSHUW\ FXVWRGLDQ JXDUGV VKRXOG WXUQ RYHU
       IRXQG SURSHUW\ WR WKHLU VXSHUYLVRU ZKR VKRXOG WKHQ WXUQ RYHU WKH
       SURSHUW\ WR DQ )36 RIILFLDO )36 VKRXOG VWRUH IRXQG LWHPV LQ D
       ORFNHU LQ D VHFXUH URRP $FFRUGLQJ WR WKH ,QVSHFWRU WKHUH ZDV QR
       GHDGOLQH IRU WXUQLQJ RYHU IRXQG SURSHUW\ WR )36

       2Q 0DUFK   )36 XSGDWHG WKH SRVW RUGHUV IRU WKH SRVW
       ZKHUH WKH ,(' ZDV VWRUHG ZLWK QHZ IRXQG SURSHUW\ SURFHGXUHV
       7KH SURFHGXUHV VWDWH WKDW JXDUGV VKDOO QRW UHFHLYH SURSHUW\ WKDW
       FDQQRW EH UHDGLO\ LGHQWLILHG DQG WKDW WKH SURSHUW\ VKDOO EH WXUQHG
       RYHU WR )36 ZLWKLQ  KRXUV ,Q 6HSWHPEHU  )36 FUHDWHG D
       SROLF\ IRU KDQGOLQJ VHL]HG IRUIHLWHG DEDQGRQHG RU XQFODLPHG
       SHUVRQDO SURSHUW\ 7KH SROLF\ VWDWHV WKDW DOO SURSHUW\ VKDOO EH
       WXUQHG RYHU WR WKH SURSHUW\ FXVWRGLDQ ³ZLWKRXW XQQHFHVVDU\´ GHOD\

       FPS Post Inspections Did Not Identify the IED

       :KLOH WKH EDJ FRQWDLQLQJ WKH ,(' ZDV VWRUHG XQGHU WKH VHFXULW\
       FRQVROH DQ )36 ,QVSHFWRU FRQGXFWHG IRXU LQVSHFWLRQV RI WKH SRVW
       ZKHUH WKH ,(' ZDV VWRUHG LQFOXGLQJ RQH LQVSHFWLRQ RQ 0DUFK 
        WKH GD\ WKH ,(' ZDV GLVFRYHUHG $ SRVW LQVSHFWLRQ LV D
       UHYLHZ RI WKH HOHPHQWV WKDW FRQVWLWXWH D VHFXULW\ SRVW DQG LWV
       RSHUDWLRQDO HIIHFWLYHQHVV 7KH )36 ,QVSHFWRU GLG QRW LGHQWLI\ WKH
       ,(' GXULQJ WKH LQVSHFWLRQV QRWLQJ HDFK WLPH WKDW WKH SRVW ZDV
       ³FOHDQ DQG RUGHUO\´ DQG ³IUHH RI XQDXWKRUL]HG LWHPV´

       )36 RIILFLDOV ZRUNLQJ DW WKH 0F1DPDUD %XLOGLQJ KDG GLIIHUHQW
       RSLQLRQV RQ ZKRVH UHVSRQVLELOLW\ LW LV WR NHHS SRVWV IUHH RI
       XQDXWKRUL]HG LWHPV 7KH ,QVSHFWRU ZKR FRQGXFWHG WKH SRVW
       LQVSHFWLRQV GLG QRW EHOLHYH WKDW FOHDQOLQHVV RI WKH SRVW ZDV D IDFWRU
       KH VKRXOG KDYH FRQVLGHUHG ZKHQ FRQGXFWLQJ LQVSHFWLRQV +H VDLG
       WKDW FKDQJHV WR SRVW LQVSHFWLRQ SURFHGXUHV ZHUH YDJXH DQG
       FRPPXQLFDWHG RUDOO\ E\ D VXSHUYLVRU 7KH ,QVSHFWRU¶V VXSHUYLVRU
       VDLG WKDW ,QVSHFWRUV DUH VXSSRVHG WR FKHFN WKH DSSHDUDQFH RI WKH
       DUHD DURXQG D SRVW DV SDUW RI D SRVW LQVSHFWLRQ 7KH PRVW VHQLRU
       )36 RIILFLDO DW WKH 0F1DPDUD %XLOGLQJ VDLG WKDW JXDUGV DQG WKHLU
       VXSHUYLVRUV DUH UHVSRQVLEOH IRU HQVXULQJ WKDW WKH SRVWV DUH FOHDU DQG


Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                              Page 7
             IUHH RI XQDXWKRUL]HG LWHPV

             1RWZLWKVWDQGLQJ ZKRVH UHVSRQVLELOLW\ LW ZDV WR HQVXUH WKDW WKH
             VHFXULW\ FRQVROH ZDV IUHH RI XQDXWKRUL]HG LWHPV WKH VHFXULW\
             FRQVROH ZDV URXWLQHO\ FOXWWHUHG ZLWK JXDUGV¶ EHORQJLQJV DQG DV
             SUHYLRXVO\ GLVFXVVHG IRXQG SURSHUW\ 2QH )36 RIILFLDO VWDWLRQHG
             DW WKH 0F1DPDUD %XLOGLQJ VDLG WKDW WZR RU WKUHH EDJV ZHUH XQGHU
             WKH VHFXULW\ FRQVROH DW WKH VDPH WLPH DV WKH EDJ FRQWDLQLQJ WKH
             ,(' 7KLV RIILFLDO VSHFXODWHG WKDW WKH EDJ FRQWDLQLQJ WKH ,(' ZHQW
             XQQRWLFHG EHFDXVH LW EOHQGHG LQ ZLWK WKH RWKHU EDJV 7KH UHVXOWV RI
             PDQ\ RI WKH VWDII LQWHUYLHZV WKDW '(&2 FRQGXFWHG VXSSRUW WKLV
             WKHRU\ VHH DSSHQGL[ (


             Recommendation
             :H UHFRPPHQG WKDW WKH 'LUHFWRU RI WKH )HGHUDO 3URWHFWLYH 6HUYLFH

             Recommendation 1: 3URYLGH FOHDU JXLGDQFH RQ ZKRVH
             UHVSRQVLELOLW\ LW LV DQG WKH FULWHULD IRU GHWHUPLQLQJ ZKHWKHU SRVWV
             DUH FOHDQ DQG RUGHUO\ DQG IUHH RI XQDXWKRUL]HG LWHPV


     Management Comments and OIG Analysis
             Management Comments to Recommendation 1

             133' FRQFXUUHG ZLWK WKH UHFRPPHQGDWLRQ ,Q LWV UHVSRQVH 133'
             VWDWHG WKDW LW LV SUHSDULQJ VXSSOHPHQWDO JXLGDQFH IRU FRQWUDFW JXDUG
             VHUYLFH YHQGHUV WKDW PRGLILHV DQG FODULILHV SRVW LQVSHFWLRQ SURWRFRO
             DQG SRVW RUGHUV 7KLV JXLGDQFH VFKHGXOHG IRU LVVXDQFH E\ WKH HQG
             RI 0D\  DGGUHVVHV WKH LVVXHV RI ZKDW FRQVWLWXWHV D FOHDQ
             RUGHUO\ SRVW WKDW LV IUHH RI XQDXWKRUL]HG LWHPV

             OIG Analysis

             133'¶V SUHSDUDWLRQ RI VXSSOHPHQWDO JXLGDQFH IRU FRQWUDFW JXDUG
             VHUYLFH YHQGRUV WKDW PRGLILHV DQG FODULILHV SRVW LQVSHFWLRQ SURWRFRO
             DQG SRVW RUGHUV LV UHVSRQVLYH WR WKH LQWHQW RI WKLV UHFRPPHQGDWLRQ
             ,Q LWV DFWLRQ SODQ 133' VKRXOG SURYLGH XV ZLWK D FRS\ RI LWV QHZ
             JXLGDQFH RQ ZKDW FRQVWLWXWHV D FOHDQ RUGHUO\ SRVW WKDW LV IUHH RI
             XQDXWKRUL]HG LWHPV 7KLV UHFRPPHQGDWLRQ LV 5HVROYHG ± 2SHQ


FPS Accepted DECO’s Corrective Action Plan

      Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                    Page 8
2Q 0DUFK   '(&2 SURYLGHG )36 ZLWK D FRUUHFWLYH DFWLRQ SODQ
DQG VXEVHTXHQW VWDWXV XSGDWHV GHVFULELQJ LWV SURJUHVV LQ LPSOHPHQWLQJ WKH
SODQ ,Q $SULO  )36 GHWHUPLQHG WKDW '(&2¶V DFWLRQ SODQ ZDV
DFFHSWDEOH 7KLV SODQ LQFOXGHG DGPLQLVWHULQJ GLVFLSOLQH SURYLGLQJ
DGGLWLRQDO WUDLQLQJ LQFUHDVLQJ RYHUVLJKW DW SRVWV DQG FRPSOHWLQJ LQWHUQDO
DQG H[WHUQDO UHYLHZV RI LWV RSHUDWLRQV $GGLWLRQDOO\ )36 GHGXFWHG
         IURP ZKDW LW ZRXOG KDYH RWKHUZLVH RZHG '(&2 IRU
QRQSHUIRUPDQFH

        DECO Terminated the Guard Who Brought the IED Into the
        Building and Disciplined Others

        '(&2 WRRN VHYHUDO SHUVRQQHO DFWLRQV DV D UHVXOW RI WKLV LQFLGHQW
        7KH JXDUG ZKR EURXJKW WKH EDJ FRQWDLQLQJ WKH ,(' LQWR WKH
        EXLOGLQJ DQG WKH JXDUG DQG WKH VXSHUYLVRU ZKR [ UD\HG WKH EDJ DQG
        LQFRUUHFWO\ LGHQWLILHG LWV FRQWHQWV ZHUH WHUPLQDWHG 7KH VXSHUYLVRU
        ZKR UHOLHYHG WKH JXDUG ZKR EURXJKW WKH EDJ LQWR WKH EXLOGLQJ
        UHVLJQHG ,Q DGGLWLRQ '(&2 SURSRVHG SHUVRQQHO DFWLRQV DJDLQVW
        VHYHUDO RWKHU HPSOR\HHV 3URSRVHG DFWLRQV LQFOXGH VXVSHQVLRQ RU
        ZULWWHQ ZDUQLQJV IRU DOO WKH JXDUGV ZKR KDG NQRZOHGJH RI WKH EDJ
        DQG GLG QRW VFUHHQ GRFXPHQW RU UHSRUW WKH EDJ SURSHUO\ 0DQ\ RI
        WKHVH JXDUGV UHSRUWHG WKDW WKH\ WKRXJKW WKH EDJ ZDV IRXQG
        SURSHUW\ '(&2 GLG QRW SURSRVH DQ\ SHUVRQQHO DFWLRQV IRU JXDUGV
        ZKR ZHUH QRW DZDUH RI WKH EDJ

        '(&2 DOVR FRQGXFWHG D  GD\ PDQDJHPHQW UHYLHZ RI IRXU
        HPSOR\HHV ZKR IUHTXHQWO\ SDVVHG WKURXJK WKH OREE\ EXW GLG QRW
        KDYH GLUHFW FRQWDFW ZLWK WKH EDJ²WZR VXSHUYLVRUV RQH
        DGPLQLVWUDWLYH VWDII PHPEHU DQG WKH FRQWUDFW PDQDJHU 7KH
        UHYLHZ LQFOXGHG DQ H[DPLQDWLRQ RI WKHLU GXWLHV UHVSRQVLELOLWLHV
        DQG DFFRXQWDELOLWLHV UHSRUWLQJ DQG GRFXPHQWDWLRQ UHFRUGV YLHZV
        RI DQ\ VKRUWFRPLQJV LQ '(&2¶V PHWKRGRORJ\ UHFRPPHQGDWLRQV
        RQ KRZ '(&2 FRXOG GHDO ZLWK WKH ZRUNIRUFH PRUH HIIHFWLYHO\ DQG
        UHFRPPHQGDWLRQV IRU PRGLI\LQJ TXDOLW\ FRQWURO DQG WUDLQLQJ SODQV
        6RPH SURSRVHG SHUVRQQHO DFWLRQV KDYH QRW EHHQ WDNHQ SHQGLQJ WKH
        RXWFRPH RI WKH JULHYDQFH DQG DUELWUDWLRQ SURFHVV 'HVFULSWLRQV RI
         HPSOR\HHV¶ DFWLRQV DQG WKH VWDWXV RI SHUVRQQHO DFWLRQV DUH OLVWHG
        LQ DSSHQGL[ (

        '(&2 XVHG )36¶ SRVW LQVSHFWLRQ UHSRUWV DQG WKH UHVXOWV RI LWV RZQ
        DGPLQLVWUDWLYH LQTXLU\ RI WKH  HPSOR\HHV WR GHWHUPLQH ZKDW
        SHUVRQQHO DFWLRQV WR WDNH ,W DOVR VRXJKW DSSURYDO IURP )36
        UHJDUGLQJ WKH DFWLRQV )36 GLG QRW JLYH '(&2 LWV RSLQLRQ RI WKH
        SURSRVHG DFWLRQV )36 LQIRUPHG XV WKDW '(&2¶V SURSRVHG


 Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                               Page 9
       SHUVRQQHO DFWLRQV DUH EHWZHHQ WKH FRPSDQ\ DQG LWV HPSOR\HHV

       DECO and FPS Provided Additional Training to Guards

       6KRUWO\ DIWHU WKH ,(' ZDV GLVFRYHUHG )36 FRRUGLQDWHG ZLWK '(&2
       WR PRGLI\ LWV FRQWUDFW WR LQFOXGH ZHDSRQV GHWHFWLRQ UHIUHVKHU
       WUDLQLQJ IRU  JXDUGV ,Q $SULO  )36¶ 1DWLRQDO :HDSRQV
       'HWHFWLRQ 3URJUDP SURYLGHG WKH WUDLQLQJ ZKLFK FRQVLVWHG RI
        KRXUV RI OHFWXUH DQG  KRXUV RI KDQGVRQ ODERUDWRU\ H[HUFLVHV
       ZRUNLQJ ZLWK WKH [UD\ PDFKLQH WKH ZDONWKURXJK PHWDO GHWHFWRU
       DQG WKH KDQGKHOG PHWDO GHWHFWRU '(&2 SDLG IRU LWV HPSOR\HHV WR
       DWWHQG WKH WUDLQLQJ ,Q $SULO  '(&2 WUDLQHG DSSUR[LPDWHO\
        JXDUGV RQ VLWXDWLRQDO DZDUHQHVV 7KLV FRXUVH IRFXVHG RQ
       PDLQWDLQLQJ FRQVWDQW YLJLODQFH

       DECO’s Internal Review of Operations Did Not Identify
       Systemic Problems

       '(&2 GLG QRW ILQG V\VWHPLF SUREOHPV ZLWK LWV SHUIRUPDQFH RQ WKH
       FRQWUDFW ,W GLG ILQG WKDW VHYHUDO JXDUGV ZHUH QHJOLJHQW LQ WKHLU
       GXWLHV ZKHQ WKH EDJ FRQWDLQLQJ WKH ,(' ZDV PLVKDQGOHG )36
       RIILFLDOV ZHUH QHDUO\ XQDQLPRXV LQ WKHLU DVVHVVPHQW WKDW WKHUH ZHUH
       QR V\VWHPLF SUREOHPV ZLWKLQ '(&2 WKDW OHG WR WKH ,(' LQFLGHQW

       $V SDUW RI LWV FRUUHFWLYH DFWLRQ SODQ '(&2 FRQGXFWHG DQ LQWHUQDO
       UHYLHZ RI LWV RSHUDWLRQV DQG FRQFOXGHG WKDW LW GLG QRW KDYH V\VWHPLF
       LVVXHV ZLWK LWV RYHUDOO DSSURDFK RU ZLWK WKH SHUIRUPDQFH RQ WKLV
       FRQWUDFW LQ JHQHUDO +RZHYHU '(&2 LGHQWLILHG RSSRUWXQLWLHV WR
       LPSURYH LQ VRPH DUHDV LQFOXGLQJ WKH DGHTXDF\ RI LWV TXDOLW\
       FRQWURO SODQ VXSHUYLVRU\ SHUVRQQHO DQG VXSHUYLVLRQ LQ WKH OREE\
       RI WKH 0F1DPDUD %XLOGLQJ

       $FFRUGLQJ WR '(&2 LW ZDV PHHWLQJ RU H[FHHGLQJ WKH FRQWUDFW¶V
       RULJLQDO TXDOLW\ FRQWURO UHTXLUHPHQWV +RZHYHU DV D UHVXOW RI LWV
       LQWHUQDO UHYLHZ '(&2 FUHDWHG D QHZ TXDOLW\ FRQWURO SRVLWLRQ DW
       WKH FRUSRUDWH OHYHO VWDQGDUGL]HG TXDOLW\ FRQWURO SURFHGXUHV DFURVV
       DOO RI LWV JXDUG VHUYLFHV FRQWUDFWV HQKDQFHG LWV TXDOLW\ FRQWURO
       LQVSHFWLRQV H[SDQGHG UHSRUWLQJ RQ DGGLWLRQDO TXDOLW\ FRQWURO
       PHWULFV DQG LQFUHDVHG FRPPXQLFDWLRQV EHWZHHQ TXDOLW\ FRQWURO
       SHUVRQQHO

       '(&2 GHFLGHG WKDW LW ZDV LQ LWV EHVW LQWHUHVW WR FKDQJH LWV FRQWUDFW
       PDQDJHU '(&2 SODFHG WKH FRQWUDFW PDQDJHU LQ WKH TXDOLW\
       FRQWURO PDQDJHU SRVLWLRQ DQG PDGH WKH IRUPHU TXDOLW\ FRQWURO
       PDQDJHU WKH QHZ FRQWUDFW PDQDJHU $FFRUGLQJ WR '(&2 WKLV


Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                              Page 10
       VZLWFK ZDV PDGH EHFDXVH WKH FRQWUDFW QHHGHG D ³QHZ VHW RI H\HV´
       ,Q DGGLWLRQ D '(&2 RIILFLDO VDLG KH IHOW FRPSHOOHG WR FKDQJH
       SHUVRQQHO EHFDXVH )36 FKDQJHG LWV FRQWUDFWLQJ RIILFHU¶V WHFKQLFDO
       UHSUHVHQWDWLYH &275 DIWHU WKH ,(' LQFLGHQW '(&2 DOVR
       LQWHUYLHZHG VXSHUYLVRUV DQG GHWHUPLQHG WKDW VRPH GLG QRW
       XQGHUVWDQG WKHLU FULWLFDO GXWLHV DQG UHVSRQVLELOLWLHV $V D UHVXOW
       '(&2 UHYLHZHG VXSHUYLVRU\ IXQFWLRQV DQG FUHDWHG QHZ DQG
       XSGDWHG MRE GHVFULSWLRQV DQG UHVSRQVLELOLWLHV IRU WKHVH SRVLWLRQV

       $IWHU WKH ,(' LQFLGHQW '(&2 WHPSRUDULO\ SODFHG DQ H[WUD
       VXSHUYLVRU LQ WKH OREE\ DW QR DGGLWLRQDO FRVW WR WKH *RYHUQPHQW
       '(&2 FHDVHG SURYLGLQJ WKH H[WUD VXSHUYLVRU LQ $SULO 
       +RZHYHU LQ DQ HIIRUW WR PDLQWDLQ D OHDGHUVKLS SUHVHQFH DPRQJ
       JXDUGV VWDWLRQHG LQ WKH OREE\ '(&2 FUHDWHG D OHDG JXDUG UROH ZLWK
       H[WUD UHVSRQVLELOLWLHV DQG SD\ DW QR DGGLWLRQDO FRVW WR WKH
       *RYHUQPHQW 7KH OHDG JXDUG¶V UHVSRQVLELOLWLHV LQFOXGH DFWLQJ DV D
       SRLQW RI FRQWDFW FRRUGLQDWLQJ DFWLYLWLHV RI RWKHU JXDUGV DQG FDOOLQJ
       IRU DVVLVWDQFH ZKHQ UHTXLUHG

       A Third-Party Review Prompted DECO To Change Its Hiring
       Practices

       '(&2 DOVR HQJDJHG RXWVLGH FRQVXOWDQWV WR UHYLHZ LWV RSHUDWLRQV
       DQG LW SURYLGHG WKH UHVXOWV RI WKH UHYLHZ WR )36 7KH FRQVXOWDQWV
       PDGH PXOWLSOH UHFRPPHQGDWLRQV WR '(&2 WR LPSURYH LWV
       RSHUDWLRQV :LWK UHVSHFW WR KLULQJ SUDFWLFHV WKH\ UHFRPPHQGHG
       WKDW '(&2 FHDVH KLULQJ IXOOWLPH SROLFH RIILFHUV DV JXDUGV DQG KLUH
       UHWLUHG SROLFH RIILFHUV RU WKRVH ZLWK PLOLWDU\ H[SHULHQFH LQVWHDG
       7KH FRQVXOWDQWV QRWHG WKDW IXOOWLPH SROLFH RIILFHUV DUH ZHOO WUDLQHG
       ILUHDUPV TXDOLILHG DQG KDYH SDVVHG D EDFNJURXQG FKHFN
       +RZHYHU SROLFH GXW\ UHTXLUHV WLPH RII WR UHMXYHQDWH LQ DQ
       HQYLURQPHQW WKDW LV OHVV VWUHVVIXO DQG KDV OLPLWHG REOLJDWLRQV ,Q
       FRQWUDVW JXDUG GXW\ UHTXLUHV FRQVWDQW YLJLODQFH DQG D KLJK OHYHO RI
       UHVSRQVLELOLW\ '(&2 FRQILUPHG WKDW LW QR ORQJHU KLUHV IXOOWLPH
       SROLFH RIILFHUV WR ZRUN DV JXDUGV

       FPS Assessed a Contract Deduction for Nonperformance

       )36 GHGXFWHG            IURP WKH FRQWUDFW DPRXQW EHFDXVH '(&2
       GLG QRW FRPSO\ ZLWK YDULRXV 62: DQG SRVW RUGHU SURYLVLRQV )36
       FDOFXODWHG WKLV DPRXQW E\ GHWHUPLQLQJ WKH QXPEHU RI KRXUV WKDW
       JXDUGV GLG QRW SURSHUO\ SHUIRUP WKHLU GXWLHV EHWZHHQ )HEUXDU\ 
       DQG 0DUFK   DQG PXOWLSO\LQJ WKH QXPEHU RI KRXUV E\ WKH
       KRXUO\ UDWH IRU JXDUG VHUYLFHV '(&2 GLG QRW DSSHDO WKH GHGXFWLRQ



Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                              Page 11
           Continuing the Contract Was Advantageous for the Government
                    $IWHU FRQVLGHULQJ VHYHUDO IDFWRUV )36 GHWHUPLQHG WKDW FRQWLQXLQJ WKH
                    FRQWUDFW ZDV DGYDQWDJHRXV IRU WKH *RYHUQPHQW ,Q SDUWLFXODU )36
                    HYDOXDWHG WKH FLUFXPVWDQFHV WKDW FDXVHG WKLV LQFLGHQW )36¶ RSWLRQV DQG
                    REOLJDWLRQV XQGHU WKH )HGHUDO $FTXLVLWLRQ 5HJXODWLRQ '(&2¶V RYHUDOO
                    SHUIRUPDQFH WKH UHSHUFXVVLRQV RI H[HFXWLQJ DQ HPHUJHQF\ SURFXUHPHQW
                    IRU D QHZ FRQWUDFW DQG LVVXHV UHODWHG WR )36¶ UHVSRQVLELOLW\ WR SURYLGH
                    VHOHFW WUDLQLQJ WR '(&2¶V FDGUH RI JXDUGV LQ 0LFKLJDQ :H FRQFXU ZLWK
                    )36¶ GHFLVLRQ +RZHYHU ZH DOVR LGHQWLILHG GHILFLHQFLHV LQ )36¶ JXDUG
                    WUDLQLQJ DQG VXLWDELOLW\ GHWHUPLQDWLRQ SURJUDPV WKDW )36¶ $FTXLVLWLRQ
                    'LYLVLRQ ZDV QRW DZDUH RI DW WKH WLPH LW GHFLGHG WR FRQWLQXH WKH FRQWUDFW
                    EXW WKDW UHLQIRUFH LWV GHFLVLRQ 7KH GHFLVLRQ WR FRQWLQXH WKH FRQWUDFW GLG
                    QRW SXW WKH EXLOGLQJ RU LWV RFFXSDQWV DW DGGLWLRQDO ULVN DQG PLQLPL]HG DQ\
                    SRWHQWLDO FRQWUDFWXDO OLDELOLW\ RQ WKH SDUW RI )36

                    )36¶ $FTXLVLWLRQV 'LYLVLRQ DQG 5HJLRQ  SHUVRQQHO GLVDJUHHG LQLWLDOO\ RQ
                    ZKHWKHU WR FRQWLQXH WKH FRQWUDFW  5HJLRQ  VWDII ZDQWHG WR WHUPLQDWH LW
                    EHFDXVH WKH\ EHOLHYHG WKDW '(&2¶V DFWLRQV ZHUH WRR HJUHJLRXV +RZHYHU
                    VRPH 5HJLRQ  RIILFLDOV DFNQRZOHGJHG WKDW WKH\ GLG QRW KDYH HQRXJK
                    NQRZOHGJH RI FRQWUDFWLQJ SURFHGXUHV WR PDNH VXFK DQ DVVHVVPHQW )36¶
                    $FTXLVLWLRQV 'LYLVLRQ DQG 5HJLRQ  GLVFXVVHG DYDLODEOH RSWLRQV EHIRUH
                    GHFLGLQJ WKDW FRQWLQXLQJ WKH FRQWUDFW ZDV LQ WKH EHVW LQWHUHVW RI WKH
                    *RYHUQPHQW

                    $V GLVFXVVHG SUHYLRXVO\ )36 DFFHSWHG '(&2¶V FRUUHFWLYH DFWLRQ SODQ
                    )36 IHOW FRQILGHQW LQ '(&2¶V DELOLW\ WR SHUIRUP XQGHU WKH FRQWUDFW *LYHQ
                    '(&2¶V DFFHSWDEOH RYHUDOO SHUIRUPDQFH LW ZDV DGYDQWDJHRXV WR FRQWLQXH
                    WKH FRQWUDFW

                             The Government Must Provide Companies With the
                             Opportunity To Remedy Failures Before Contract
                             Termination

                             ,I )36 KDG SXUVXHG WHUPLQDWLRQ RI WKH FRQWUDFW LW ZRXOG KDYH KDG
                             WR SURYLGH '(&2 ZLWK D FXUH QRWLFH LGHQWLI\LQJ WKH XQDFFHSWDEOH
                             SHUIRUPDQFH DQG JLYH '(&2 DQ RSSRUWXQLW\ WR UHVSRQG DQG FXUH
                             IDLOXUHV WKDW )36 LGHQWLILHG '(&2 ZRXOG WKHQ KDYH DW OHDVW 
                             GD\V WR UHVSRQG WR WKH FXUH QRWLFH GHVFULELQJ KRZ LW LQWHQGV WR
                             UHPHG\ WKRVH IDLOXUHV  8SRQ H[SLUDWLRQ RI WKLV SHULRG WKH
                             FRQWUDFWLQJ RIILFHU PD\ LVVXH D QRWLFH RI WHUPLQDWLRQ IRU GHIDXOW LI
                             LW GHWHUPLQHV WKDW '(&2 KDV QRW FXUHG LWV IDLOXUH WR SHUIRUP 7KLV


    )36 LV RUJDQL]HG LQWR  UHJLRQV 7KH 0F1DPDUD %XLOGLQJ LV LQ 5HJLRQ 

    3URFHGXUHV IRU WHUPLQDWLRQ IRU GHIDXOW DUH HVWDEOLVKHG XQGHU  &)5  


                      Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                                    Page 12
                          PDQGDWRU\ SURFHVV PD\ WDNH VHYHUDO PRQWKV *HQHUDOO\ WKH FRXUWV
                          YLHZ D WHUPLQDWLRQ IRU GHIDXOW DV D GUDVWLF DFWLRQ DQG WKH
                          *RYHUQPHQW EHDUV WKH EXUGHQ RI SURYLQJ EDVHG RQ VRXQG HYLGHQFH
                          DQG DQDO\VLV WKDW LW ZDV MXVWLILHG )36 ULVNV OLWLJDWLRQ LI D FRQWUDFW
                          LV WHUPLQDWHG LPSURSHUO\ EHFDXVH FRPSDQLHV KDYH WKH ULJKW WR
                          DSSHDO WKHLU WHUPLQDWLRQ 

                          FPS Issued a Letter of Concern Instead of a Cure Notice

                          ,W ZRXOG KDYH EHHQ SUHPDWXUH DQG ULVN\ IRU )36 WR SXUVXH
                          WHUPLQDWLRQ RI WKH FRQWUDFW LPPHGLDWHO\ DIWHU WKH ,(' LQFLGHQW
                          EHFDXVH )36 GLG QRW KDYH HQRXJK LQIRUPDWLRQ GXH WR D FRLQFLGLQJ
                          FULPLQDO LQYHVWLJDWLRQ '(&2 ZRXOG KDYH KDG JURXQGV IRU
                          DSSHDOLQJ LI )36 LPSURSHUO\ WHUPLQDWHG WKH FRQWUDFW

                          ,QVWHDG RI SXUVXLQJ WHUPLQDWLRQ )36¶ $FTXLVLWLRQV 'LYLVLRQ VHQW D
                          OHWWHU RI FRQFHUQ WR '(&2 7KLV OHWWHU GHVFULEHG FRQWUDFW EUHDFKHV
                          DQG UHTXHVWHG WKDW '(&2 LGHQWLI\ UHPHGLHV ZLWKLQ  GD\V RI WKH
                          GDWH RI WKH OHWWHU )36 RIILFLDOV GHVFULEHG WKH OHWWHU RI FRQFHUQ DV D
                          ³ZDWHUHGGRZQ´ RU ³ERUGHUOLQH´ FXUH QRWLFH 7KH GHFLVLRQ WR XVH D
                          OHWWHU RI FRQFHUQ LQVWHDG RI D FXUH QRWLFH KDG VHYHUDO DGYDQWDJHV IRU
                          WKH *RYHUQPHQW )LUVW WKH OHWWHU RI FRQFHUQ HQDEOHG )36 WR
                          LGHQWLI\ WKH FRQWUDFW EUHDFKHV DQG QRWLI\ '(&2 RI WKHP 6HFRQG
                          )36 ZDV DEOH WR UHTXHVW D UHVSRQVH IURP '(&2  GD\V VRRQHU WKDQ
                          D FXUH QRWLFH UHTXLUHV 7KLUG )36 FDQ VWLOO LVVXH D FXUH QRWLFH LI LW
                          GHWHUPLQHV WKDW '(&2¶V UHPHGLHV DUH LQVXIILFLHQW

                          DECO Received High Ratings From FPS in the Past

                          )36 FRQVLGHUHG '(&2¶V OHYHO RI SDVW SHUIRUPDQFH LQ GHWHUPLQLQJ
                          ZKHWKHU WR FRQWLQXH WKH FRQWUDFW ,Q  '(&2 UHFHLYHG D UDWLQJ
                          RI                                &RPSDQLHV FDQ UHFHLYH
                          H[FHSWLRQDO YHU\ JRRG VDWLVIDFWRU\ PDUJLQDO XQVDWLVIDFWRU\ RU
                          QRW DSSOLFDEOH UDWLQJV *XDUG VHUYLFH FRPSDQLHV DUH UDWHG LQ VL[
                          NH\ DUHDV TXDOLW\ RI SURGXFW RU VHUYLFH VFKHGXOH FRVW FRQWURO
                          EXVLQHVV UHODWLRQV PDQDJHPHQW RI NH\ SHUVRQQHO DQG XWLOL]DWLRQ RI
                          VPDOO EXVLQHVV

                          7KH  UDWLQJ LQFOXGHG D QDUUDWLYH IRU HDFK UDWHG DUHD WKDW
                          GHVFULEHG '(&2¶V SHUIRUPDQFH )RU H[DPSOH ZLWK UHJDUG WR
                          TXDOLW\ RI SURGXFW RU VHUYLFH


 )HGHUDO FRQWUDFWV DUH VXEMHFW WR WKH Contract Disputes Act of 1978 DV DPHQGHG $ FRPSDQ\ FRQWUDFWLQJ
ZLWK '+6 PD\ DSSHDO WKH 'HSDUWPHQW¶V GHFLVLRQ WR WKH &LYLOLDQ %RDUG RI &RQWUDFW $SSHDOV RU WR WKH 8QLWHG
6WDWHV &RXUW RI )HGHUDO &ODLPV *HQHUDOO\ LI XQVDWLVILHG WKH ORVLQJ SDUW\ PD\ DSSHDO WKH %RDUG¶V RU
&RXUW¶V GHFLVLRQ WR WKH &RXUW RI $SSHDOV IRU WKH )HGHUDO &LUFXLW SHU  86& 


                   Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                                 Page 13
                            :LWK UHJDUG WR PDQDJHPHQW RI NH\
       SHUVRQQHO WKH  UDWLQJ VDLG '(&2¶V JXDUGV

                                                   

       Terminating the Contract Might Not Have Yielded a
       Significant Improvement in Guards’ Performance in the Short
       Term

       )36 DYRLGHG WKH FKDOOHQJH RI VROLFLWLQJ DQ HPHUJHQF\ SURFXUHPHQW
       IRU JXDUG VHUYLFHV E\ GHFLGLQJ QRW WR WHUPLQDWH WKH FRQWUDFW )36
       ZRXOG KDYH EHHQ REOLJDWHG WR HQVXUH WKDW DOO JXDUG SRVWV XQGHU WKH
       FRQWUDFW LQFOXGLQJ WKH 0F1DPDUD %XLOGLQJ DQG DOO RWKHU SRVWV LQ
       0LFKLJDQ ZHUH VWDIIHG LPPHGLDWHO\ E\ D QHZ FRPSDQ\ EHFDXVH
       )36 GRHV QRW KDYH HQRXJK SHUVRQQHO WR VWDII WKRVH SRVWV )36
       ZRXOG KDYH KDG WR RYHUVHH WKH WUDQVLWLRQ EHWZHHQ '(&2 DQG LWV
       VXFFHVVRU WR HQVXUH PLQLPXP GLVUXSWLRQ WR YLWDO VHUYLFHV DQG
       *RYHUQPHQW DFWLYLWLHV ,W ZDV PRUH DGYDQWDJHRXV IRU )36 WR KDYH
       '(&2 FRUUHFW LWV SHUIRUPDQFH GHILFLHQFLHV

       $GGLWLRQDOO\ WKH PDNHXS RI WKH JXDUG ZRUNIRUFH PLJKW QRW KDYH
       FKDQJHG VLJQLILFDQWO\ :KHQ D FRPSDQ\ SURYLGLQJ JXDUG VHUYLFHV
       FKDQJHV WKH LQFXPEHQW JXDUG ZRUNIRUFH RQ DQ )36 JXDUG VHUYLFH
       FRQWUDFW LV WDUJHWHG IRU KLUH E\ WKH VXFFHVVRU FRPSDQ\ 7KH
       VXFFHVVRU XVXDOO\ UHWDLQV DSSUR[LPDWHO\  WR  SHUFHQW RI WKH
       LQFXPEHQW JXDUG ZRUNIRUFH 7KHUHIRUH WHUPLQDWLQJ WKH FRQWUDFW
       PLJKW QRW KDYH \LHOGHG D VLJQLILFDQW RU LPPHGLDWH LPSURYHPHQW LQ
       JXDUGV¶ SHUIRUPDQFH DW 0LFKLJDQ )HGHUDO IDFLOLWLHV

       FPS’ Training Deficiencies Made It Difficult To Hold DECO
       Accountable

       $Q LQWHUQDO DXGLW RI 5HJLRQ ¶V RSHUDWLRQV GHWHUPLQHG WKDW )36 GLG
       QRW SURYLGH WUDLQLQJ WR '(&2¶V JXDUGV DV UHTXLUHG E\ WKH FRQWUDFW
       &RQVHTXHQWO\ )36¶ $FTXLVLWLRQV 'LYLVLRQ GHWHUPLQHG WKDW LW FRXOG
       QRW KROG '(&2 VROHO\ UHVSRQVLEOH

       7KH FRQWUDFW UHTXLUHV WKDW )36 SURYLGH  KRXUV RI RULHQWDWLRQ DQG
       VFUHHQLQJ WUDLQLQJ WR DOO JXDUGV EHIRUH WKH\ EHJLQ ZRUNLQJ RQ WKH
       FRQWUDFW )ROORZLQJ WKH ,(' LQFLGHQW )36¶ 3URJUDP 5HYLHZ
       'LYLVLRQ FRQGXFWHG DQ LQWHUQDO DXGLW RI PRUH WKDQ KDOI RI
       0LFKLJDQ¶V JXDUG ILOHV WR GHWHUPLQH ZKHWKHU WKH DJHQF\ ZDV


Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                              Page 14
                           PHHWLQJ LWV WUDLQLQJ UHTXLUHPHQWV LQ 5HJLRQ  )36 OHDUQHG WKDW
                           RQO\  SHUFHQW RI WKHVH ILOHV FRQWDLQHG GRFXPHQWDWLRQ RI )36
                           SURYLGHG VFUHHQLQJ WUDLQLQJ 5HJLRQ ¶V UHVSRQVH WR WKH LQWHUQDO
                           DXGLW VDLG WKDW XQWLO DSSUR[LPDWHO\  QR )36 SHUVRQQHO KDG
                           EHHQ IRUPDOO\ WUDLQHG WR XVH RU WHDFK WKH XVH RI VFUHHQLQJ
                           HTXLSPHQW WR SURYLGH WKH UHTXLUHG WUDLQLQJ RQ ZDONWKURXJK DQG
                           KDQGKHOG PHWDO GHWHFWRUV 5HJLRQ  RIILFLDOV VDLG WKH\ KDG QRW KDG
                           D WUDLQLQJ FRRUGLQDWRU VLQFH  ZKLFK KDV FRQWULEXWHG WR WKLV
                           SUREOHP 6HYHUDO SHRSOH FXUUHQWO\ VKDUH WUDLQLQJ FRRUGLQDWRU
                           GXWLHV DV D FROODWHUDO GXW\

                           %HFDXVH QRQH RI WKH LQVSHFWHG 0LFKLJDQ ILOHV FRQWDLQHG HYLGHQFH
                           WKDW JXDUGV UHFHLYHG )36¶ RULHQWDWLRQ WUDLQLQJ 5HJLRQ  SHUIRUPHG
                           D  SHUFHQW DGPLQLVWUDWLYH DXGLW RI LWV FRQWUDFWV DQG OHDUQHG WKDW
                           ILOHV FRQVLVWHQWO\ QHHGHG FHUWLILFDWLRQ GRFXPHQWDWLRQ  :H
                           FRQILUPHG WKDW WKH )36 &275 GLG QRW SURYLGH RULHQWDWLRQ WUDLQLQJ
                           WR 0LFKLJDQ JXDUGV 5HJLRQ  RIILFLDOV VDLG WKDW )36 SROLF\
                           FRQIOLFWV ZLWK WKH FRQWUDFW¶V 62: RQ PHHWLQJ WKH *RYHUQPHQW¶V
                           WUDLQLQJ UHTXLUHPHQWV 7KH\ DVVHUWHG WKDW WKH FRQWHQW RI WKH HLJKW
                           KRXUV RI *RYHUQPHQWSURYLGHG RULHQWDWLRQ WUDLQLQJ FRXOG EH
                           FRYHUHG HIIHFWLYHO\ GXULQJ '(&2SURYLGHG WUDLQLQJ 7KH &275
                           ZDV XQGHU WKH LPSUHVVLRQ WKDW SUHYLRXV &275V KDG DOUHDG\ WUDLQHG
                           '(&2¶V VXSHUYLVRUV RQ SUHGHFHVVRU FRQWUDFWV DQG WKDW WKRVH
                           VXSHUYLVRUV ZRXOG WKHQ LQGHSHQGHQWO\ WUDLQ WKHLU VXERUGLQDWH
                           JXDUGV

                           $Q )36 RIILFLDO VSHFXODWHG WKDW WKH LVVXHV LGHQWLILHG E\ WKH LQWHUQDO
                           DXGLW OLNHO\ H[WHQG EH\RQG 0LFKLJDQ DQG 5HJLRQ  +RZHYHU WKH
                           VFRSH RI RXU UHYLHZ ZDV OLPLWHG WR 0LFKLJDQ DQG ZH GLG QRW
                           GHWHUPLQH ZKHWKHU DQG WR ZKDW H[WHQW WKHVH LVVXHV H[LVW RXWVLGH RI
                           0LFKLJDQ

                           FPS Changed Its Screening Equipment but Has Not Trained
                           Any Guards on the New Equipment

                           %HJLQQLQJ RQ 0DUFK   )36 WUDQVLWLRQHG IURP /
                           &RPPXQLFDWLRQV¶ VFUHHQLQJ PDFKLQHV WR 6PLWK 'HWHFWLRQV¶
                           VFUHHQLQJ PDFKLQHV 7KH 6PLWK PDFKLQHV RSHUDWH GLIIHUHQWO\ WKDQ
                           WKH SUHYLRXV PDFKLQHV \HW )36¶ FXUUHQW WUDLQLQJ SURJUDP KDV QRW
                           EHHQ XSGDWHG WR UHIOHFW FKDQJHV LQ WKH VFUHHQLQJ HTXLSPHQW $V D
                           UHVXOW QR JXDUGV ZRUNLQJ DW EXLOGLQJV ZLWK WKH QHZ 6PLWK
                           PDFKLQHV LQFOXGLQJ JXDUGV DW WKH 0F1DPDUD %XLOGLQJ KDYH EHHQ


 )36 'LUHFWLYH  GHILQHV DQ DGPLQLVWUDWLYH DXGLW DV ³D FRPSOLDQFH UHYLHZ RI WKH >FRPSDQ\¶V@
DGPLQLVWUDWLYH UHFRUGV LQFOXGLQJ WUDLQLQJ FHUWLILFDWLRQV OLFHQVHV SHUPLWV SHUVRQQHO ILOHV DQG RWKHU
EXVLQHVV UHODWHG GHOLYHUDEOHV UHTXLUHG E\ WKH FRQWUDFW´


                    Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                                    Page 15
       WUDLQHG WR XVH WKH HTXLSPHQW )36 XVHV FRPSXWHUEDVHG OHVVRQV WR
       WUDLQ JXDUGV DW WKH IHZ SRVWV WKDW VWLOO XVH / &RPPXQLFDWLRQV¶
       VFUHHQLQJ HTXLSPHQW $OWKRXJK ZH LGHQWLILHG WKLV DUHD IRU
       LPSURYHPHQW LQ WKH WUDLQLQJ SURJUDP LQ 0LFKLJDQ ZH GLG QRW
       DVVHVV WUDLQLQJ DFURVV )36

       7KH FRQWUDFW VWDWHV WKDW DGGLWLRQDO VFUHHQLQJ WUDLQLQJ PD\ EH
       UHTXLUHG LI RU ZKHQ HTXLSPHQW RU WHFKQRORJ\ FKDQJHV 7KH
       FRQWUDFW DOVR VWLSXODWHV WKDW ³>Q@R VHFXULW\ JXDUG VKDOO EH SHUPLWWHG
       WR ZRUN DORQH RQ DQ\ SRVW FRQWDLQLQJ VHFXULW\ HTXLSPHQW ZLWKRXW
       SULRU WUDLQLQJ RQ WKDW VSHFLILF HTXLSPHQW´

       5HJLRQ  KDV DWWHPSWHG WR GHYLVH DQ XSGDWHG WUDLQLQJ FXUULFXOXP
       EXW )36 KHDGTXDUWHUV KDV QRW LQLWLDWHG D QHZ RIILFLDO WUDLQLQJ
       SURJUDP )36 LV FRQVLGHULQJ DW OHDVW WZR PHWKRGV IRU GHOLYHULQJ
       WUDLQLQJ RQ 6PLWK PDFKLQHV WR WKH 0LFKLJDQ JXDUG ZRUNIRUFH
       )LUVW )36 LV FRQVLGHULQJ WUDLQLQJ DOO 0LFKLJDQ JXDUGV DW D FHQWUDO
       ORFDWLRQ $FFRUGLQJ WR D 5HJLRQ  RIILFLDO SURYLGLQJ XSGDWHG
       WUDLQLQJ WR DOO 0LFKLJDQ JXDUGV ZRXOG FRVW )36 DSSUR[LPDWHO\
          7KH VHFRQG RSWLRQ LV WR WUDLQ VHOHFW ,QVSHFWRUV DQG UHO\
       RQ WKHP WR WUDLQ WKH UHPDLQLQJ ,QVSHFWRU ZRUNIRUFH ,QVSHFWRUV
       ZRXOG EH UHVSRQVLEOH IRU WUDLQLQJ JXDUGV LQ WKH UHJLRQV )36
       KHDGTXDUWHUV KDV QRW \HW GHFLGHG ZKLFK WUDLQLQJ PHWKRG LW ZLOO XVH
       ,Q WKH PHDQWLPH VFUHHQLQJ WUDLQLQJ UHPDLQV D GHILFLHQF\

       Deficiencies in FPS’ Suitability Program Resulted in the Guard
       Who Found the IED Standing Post

       7KH JXDUG ZKR EURXJKW WKH EDJ FRQWDLQLQJ WKH ,(' LQWR WKH
       0F1DPDUD %XLOGLQJ RQ )HEUXDU\   VKRXOG QRW KDYH EHHQ
       VWDQGLQJ SRVW 7KH JXDUG¶V VXLWDELOLW\ GHWHUPLQDWLRQ ZKLFK )36
       DGMXGLFDWHG IDYRUDEO\ RQ 0DUFK   H[SLUHG RQ 0DUFK 
        DOPRVW D \HDU EHIRUH WKH LQFLGHQW )36 GLG QRW UHTXHVW
       DQRWKHU VXLWDELOLW\ LQYHVWLJDWLRQ IRU WKH JXDUG XQWLO $SULO 
       DSSUR[LPDWHO\  PRQWKV DIWHU KH EURXJKW WKH ,(' LQWR WKH EXLOGLQJ

       $FFRUGLQJ WR WKH FRQWUDFW DOO SHUVRQQHO PXVW SDVV D VXLWDELOLW\
       GHWHUPLQDWLRQ FRQGXFWHG E\ WKH *RYHUQPHQW 7KH 2IILFH RI
       3HUVRQQHO 0DQDJHPHQW GHILQHV VXLWDELOLW\ DV ³LGHQWLILDEOH
       FKDUDFWHU WUDLWV DQG FRQGXFW VXIILFLHQW WR GHFLGH ZKHWKHU DQ
       LQGLYLGXDO LV OLNHO\ RU QRW OLNHO\ WR EH DEOH WR FDUU\ RXW WKH GXWLHV RI
       D IHGHUDO MRE ZLWK DSSURSULDWH LQWHJULW\ HIILFLHQF\ DQG
       HIIHFWLYHQHVV´ 3HUVRQQHO VKRXOG QRW EH DOORZHG WR SHUIRUP XQGHU
       WKH FRQWUDFW XQWLO DSSURSULDWH VXLWDELOLW\ GHWHUPLQDWLRQV KDYH EHHQ
       PDGH ,I )36 GHWHUPLQHV WKDW RQH RI '(&2¶V HPSOR\HHV LV


Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                              Page 16
        XQVXLWDEOH WR ZRUN LW VKDOO DGYLVH '(&2 LPPHGLDWHO\ DQG '(&2
        VKDOO UHPRYH WKDW HPSOR\HH IURP WKH FRQWUDFW 7KH FRQWUDFW DOVR
        VWDWHV WKDW LW LV LQFXPEHQW XSRQ FRPSDQLHV WR HQVXUH WKDW WKHLU
        HPSOR\HHV UHFHLYH IRUPDO VXLWDELOLW\ DGMXGLFDWLRQV E\ )36

        )36 QHYHU QRWLILHG '(&2 WKDW WKLV JXDUG¶V VXLWDELOLW\
        GHWHUPLQDWLRQ KDG H[SLUHG $V RI 0DUFK  5HJLRQ  KDG D
        EDFNORJ RI DSSUR[LPDWHO\  VXLWDELOLW\ GHWHUPLQDWLRQV 7KH
        VWDWXV RI WKH EDFNORJ DQG LWV FDXVHV ZHUH RXWVLGH WKH VFRSH RI RXU
        UHYLHZ


Recommendations
        :H UHFRPPHQG WKDW WKH 'LUHFWRU RI WKH )HGHUDO 3URWHFWLYH 6HUYLFH

        Recommendation 2: &UHDWH DQG LPSOHPHQW D SODQ WR SURYLGH
        JXDUGV ZRUNLQJ RQ WKH FRQWUDFW ZLWK EDVLF WUDLQLQJ WKDW PHHWV WKH
        UHTXLUHPHQWV RI WKH FRQWUDFW¶V VWDWHPHQW RI ZRUN

        Recommendation 3: &UHDWH D WUDLQLQJ SURJUDP WKDW UHIOHFWV WKH
        VFUHHQLQJ HTXLSPHQW LQ XVH DQG SURYLGH WKLV WUDLQLQJ WR WKH
        DSSURSULDWH JXDUGV

        Recommendation 4: &UHDWH DQG LPSOHPHQW D SODQ WKDW ZLOO HQVXUH
        WKDW WKH JXDUGV ZRUNLQJ RQ 5HJLRQ  FRQWUDFWV KDYH YDOLG
        VXLWDELOLW\ GHWHUPLQDWLRQV


Management Comments and OIG Analysis
        Management Comments to Recommendation 2

        133' FRQFXUUHG ZLWK WKH UHFRPPHQGDWLRQ ,Q LWV UHVSRQVH 133'
        VWDWHG WKDW LW QRZ GHOLYHUV EDVLF WUDLQLQJ LQ DFFRUGDQFH ZLWK WKH
        FRQWUDFW¶V VWDWHPHQW RI ZRUN




 Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                               Page 17
       OIG Analysis

       133'¶V GHOLYHU\ RI EDVLF WUDLQLQJ LV UHVSRQVLYH WR WKH
       UHFRPPHQGDWLRQ ,Q LWV DFWLRQ SODQ 133' VKRXOG SURYLGH XV ZLWK
       D GHVFULSWLRQ RI KRZ LW LV GHOLYHULQJ EDVLF WUDLQLQJ WR QHZ JXDUGV LQ
       0LFKLJDQ 6SHFLILFDOO\ ZH ZRXOG OLNH WR NQRZ KRZ RIWHQ WKH
       WUDLQLQJ LV SURYLGHG DQG E\ ZKRP 7KLV UHFRPPHQGDWLRQ LV
       5HVROYHG ± 2SHQ

       Management Comments to Recommendation 3

       133' FRQFXUUHG ZLWK WKH UHFRPPHQGDWLRQ ,Q LWV UHVSRQVH 133'
       VWDWHG WKDW LW KDV WUDLQHG  JXDUGV RQ WKH HTXLSPHQW LQ XVH LQ $SULO
        ,W LV DOVR FROOHFWLQJ ILHOG GDWD WR LGHQWLI\ DOO HTXLSPHQW LQ
       XVH DQG WR LQFRUSRUDWH PRGLILFDWLRQV WR WKH WUDLQLQJ SURJUDP WKDW
       UHIOHFWV WKLV HTXLSPHQW

       OIG Analysis

       7KH  JXDUGV WUDLQHG LQ $SULO  UHIHUHQFHG LQ 133'¶V
       UHVSRQVH ZRUNHG DW RQO\ RQH RI WKH  *6$RZQHG RU RSHUDWHG
       EXLOGLQJV XQGHU WKH FRQWUDFW 7KH FRQWUDFW VWLSXODWHV WKDW ³>Q@R
       VHFXULW\ JXDUG VKDOO EH SHUPLWWHG WR ZRUN DORQH RQ DQ\ SRVW
       FRQWDLQLQJ VHFXULW\ HTXLSPHQW ZLWKRXW SULRU WUDLQLQJ RQ WKDW
       VSHFLILF HTXLSPHQW´ 133'¶V DFWLRQ SODQ VKRXOG H[SODLQ KRZ LW LV
       VWDIILQJ SRVWV FRQWDLQLQJ VHFXULW\ HTXLSPHQW ZLWK TXDOLILHG
       SHUVRQQHO ZKLOH LW LV DWWHPSWLQJ WR LGHQWLI\ DOO HTXLSPHQW LQ XVH LQ
       DGGLWLRQ WR KRZ LW ZLOO SURYLGH WKH WUDLQLQJ 7KLV UHFRPPHQGDWLRQ
       LV 5HVROYHG ± 2SHQ

       Management Comments to Recommendation 4

       133' FRQFXUUHG ZLWK WKH UHFRPPHQGDWLRQ ,Q LWV UHVSRQVH 133'
       VWDWHG WKDW ZRXOG OLNH XV WR PRGLI\ WKH UHFRPPHQGDWLRQ DV IROORZV
       ³&UHDWH DQG LPSOHPHQW D SURFHVV WKDW ZLOO HQVXUH WKDW FRQWUDFW
       JXDUGV ZRUNLQJ DW )HGHUDO IDFLOLWLHV DUH IXOO\ TXDOLILHG´

       133' VWDWHG WKDW LW KDV HYDOXDWHG 5HJLRQ  DQG KDV LGHQWLILHG DUHDV
       IRU LPSURYHPHQW IRU ZRUNIORZ DQG DFFRXQWDELOLW\ LV ILQDOL]LQJ
       JXLGDQFH WR HQVXUH FRQVLVWHQF\ DQG TXDOLW\ DQG SODQV WR LQVWLWXWH D
       UHYLHZ SURFHVV WR HQVXUH FRPSOLDQFH ZLWK WKH QHZ JXLGDQFH




Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                              Page 18
                          OIG Analysis

                          :H DSSUHFLDWH DQG HQFRXUDJH 133'¶V GHVLUH WR LPSURYH DUHDV LQ
                          DGGLWLRQ WR WKH VXLWDELOLW\ GHWHUPLQDWLRQ SURFHVV WR HQVXUH WKDW
                          JXDUGV DUH IXOO\ TXDOLILHG +RZHYHU RXU UHFRPPHQGDWLRQ DV
                          RULJLQDOO\ VWDWHG DSSURSULDWHO\ DGGUHVVHV D VSHFLILF QHHG ZH
                          LGHQWLILHG GXULQJ ILHOGZRUN

                          133'¶V DFWLRQ SODQ VKRXOG LQFOXGH VSHFLILF LQIRUPDWLRQ RQ WKH
                          DUHDV IRU LPSURYHPHQW WKDW LW KDV LGHQWLILHG LQ 5HJLRQ  ,W VKRXOG
                          DOVR LQFOXGH D FRS\ RI DQ\ QHZ JXLGDQFH DQG GHWDLOV RQ LWV SODQ IRU
                          HQVXULQJ FRPSOLDQFH ZLWK WKH QHZ JXLGDQFH 7KLV
                          UHFRPPHQGDWLRQ LV 5HVROYHG ± 2SHQ


        FPS Rated DECO’s Performance as




                                                 



  $OO FRPSDQLHV DUH DOORWWHG  GD\V WR VXEPLW FRPPHQWV UHEXWWLQJ VWDWHPHQWV RU DGGLWLRQDO LQIRUPDWLRQ RQ
WKHLU GUDIW UDWLQJ RQFH LW KDV EHHQ LVVXHG E\ WKH FRQWUDFWLQJ RIILFHU SHU  &)5  E

   $JHQFLHV VKDOO SURYLGH IRU UHYLHZ DW D OHYHO DERYH WKH FRQWUDFWLQJ RIILFHU WR FRQVLGHU GLVDJUHHPHQWV
EHWZHHQ WKH SDUWLHV UHJDUGLQJ WKH HYDOXDWLRQ 7KH XOWLPDWH FRQFOXVLRQ RQ WKH SHUIRUPDQFH HYDOXDWLRQ LV D
GHFLVLRQ RI WKH FRQWUDFWLQJ DJHQF\ SHU  &)5  E


                   Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                                 Page 19
                  $OWKRXJK )36 RIILFLDOV DFNQRZOHGJHG WKDW




                  )36 RIILFLDOV LQ 5HJLRQ  ZDQWHG WR




                  '(&2 GLG QRW




                                                                                          

         FPS Intends To Solicit a New Contract in Fiscal Year 2012
                  )36 KDV DQQRXQFHG LWV LQWHQW WR VROLFLW D QHZ FRQWUDFW IRU JXDUG VHUYLFHV LQ
                  0LFKLJDQ GXULQJ WKH VHFRQG TXDUWHU RI )<  $FFRUGLQJ WR )36¶
                  $FTXLVLWLRQ 'LYLVLRQ 5HJLRQ  UHTXHVWHG D QHZ FRQWUDFW )36 KDV EHHQ
                  RUGHULQJ JXDUG VHUYLFHV RQ WKH FRQWUDFW LQ  PRQWK LQFUHPHQWV VLQFH -XO\ 
                    3ODFLQJ  PRQWK RUGHUV KDV EHHQ DGYDQWDJHRXV WR WKH *RYHUQPHQW
                  IRU PXOWLSOH UHDVRQV )LUVW LW LQFHQWLYL]HV '(&2 WR SHUIRUP VDWLVIDFWRULO\
                  RU EHWWHU LQ RUGHU WR FRQWLQXH UHFHLYLQJ RUGHUV 6HFRQG LW DOORZV )36 WR
                  PRQLWRU WKH FRQWUDFW PRUH FORVHO\ IRU SHUIRUPDQFH LVVXHV 7KLUG )36 LV
                  XVLQJ WKH RUGHULQJ SHULRGV WR SUHSDUH D SURFXUHPHQW SDFNDJH LQ
                  DQWLFLSDWLRQ RI D QHZ FRPSHWLWLRQ IRU D JXDUG VHUYLFHV FRQWUDFW IRU
                  0LFKLJDQ )36 KDV WKH IOH[LELOLW\ WR DOORZ WKH FRQWUDFW WR H[SLUH ZLWKLQ 
                  PRQWKV ZKHQ LW GHFLGHV WR RSHQ WKH FRQWUDFW IRU FRPSHWLWLRQ RU LI
                  DGGLWLRQDO SHUIRUPDQFH LVVXHV DULVH ZLWKRXW FDXVLQJ DQ\ LQWHUUXSWLRQ LQ
                  JXDUG VHUYLFHV

                  '(&2 ZLOO QRW EH EDUUHG IURP FRPSHWLQJ IRU WKH FRQWUDFW DJDLQ RQFH )36


  )36 KDV WKH DELOLW\ WR RUGHU IRU DQ\ LQFUHPHQWDO WLPH SHULRG LW SUHIHUV EHFDXVH WKH FRQWUDFW ZDV DZDUGHG
DV D EODQNHW SXUFKDVH DJUHHPHQW %ODQNHW SXUFKDVH DJUHHPHQWV DUH UHJXODWHG SHU  &)5  


                   Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                                  Page 20
VROLFLWV D QHZ FRQWUDFW '(&2 RIILFLDOV EHOLHYH WKDW




          2WKHU SULFH DQG QRQSULFH IDFWRUV DUH DOVR FRQVLGHUHG ZKHQ
DZDUGLQJ D FRQWUDFW




 Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                               Page 21
Appendix A
Purpose, Scope, and Methodology

                     ,Q -XQH  5HSUHVHQWDWLYH %HQQLH * 7KRPSVRQ DVNHG WKDW ZH
                     UHYLHZ WZR DUHDV RI )36¶ RSHUDWLRQV D FRQWUDFW RSWLRQ IRU WKH 5LVN
                     $VVHVVPHQW DQG 0DQDJHPHQW 3URJUDP DQG WKH FRQWUDFW IRU JXDUG
                     VHUYLFHV IRU 0LFKLJDQ )HGHUDO EXLOGLQJV 7KHUH LV OLWWOH RYHUODS
                     EHWZHHQ WKHVH WZR FRQWUDFWV ZKLFK SURFXUH GLIIHUHQW VHUYLFHV DQG
                     DUH DGPLQLVWHUHG E\ GLIIHUHQW RIILFHV 7KHUHIRUH ZH LVVXHG WZR
                     UHSRUWV ,Q 0DUFK  ZH LVVXHG RXU UHSRUW FPS’ Exercise of a
                     Contract Option for the Risk Assessment and Management
                     Program 2,* 7KLV UHSRUW FRQWDLQV WKH UHVXOWV RI RXU
                     UHYLHZ RI WKH 0LFKLJDQ FRQWUDFW

                     2XU REMHFWLYHV FRQFHUQLQJ WKH 0LFKLJDQ FRQWUDFW ZHUH WR GHWHUPLQH
                     ZKHWKHU  '(&2 ,QF D FRPSDQ\ WKDW SURYLGHV JXDUG VHUYLFHV
                     IRU 0LFKLJDQ )HGHUDO EXLOGLQJV EUHDFKHG LWV FRQWUDFW ZKHQ LWV
                     JXDUGV GLG QRW SURSHUO\ DWWHQG WR DQ LPSURYLVHG H[SORVLYH GHYLFH DW
                     WKH 3DWULFN 9 0F1DPDUD )HGHUDO %XLOGLQJ DQG  '(&2¶V
                     SHUIRUPDQFH KDV EHHQ VXIILFLHQWO\ UHPHGLHG :H GLG QRW HYDOXDWH
                     )36¶ RSHUDWLRQDO UHVSRQVH WR WKH LPSURYLVHG H[SORVLYH GHYLFH

                     :H UHYLHZHG VHFWLRQV RI WKH )HGHUDO $FTXLVLWLRQ 5HJXODWLRQ DQG
                     H[DPLQHG ILOHV IURP WKH 0LFKLJDQ FRQWUDFW DQG RWKHU FRQWUDFWV ZLWK
                     SHUIRUPDQFH SUREOHPV :H DOVR LQWHUYLHZHG RIILFLDOV IURP )36
                     DQG '(&2

                     :H FRQGXFWHG RXU ILHOGZRUN IURP $XJXVW WR 'HFHPEHU  7KLV
                     UHYLHZ ZDV FRQGXFWHG XQGHU WKH DXWKRULW\ RI WKH Inspector General
                     Act of 1978 DV DPHQGHG DQG DFFRUGLQJ WR WKH 4XDOLW\ 6WDQGDUGV
                     IRU ,QVSHFWLRQV LVVXHG E\ WKH 3UHVLGHQW¶V &RXQFLO RQ ,QWHJULW\ DQG
                     (IILFLHQF\ H[FHSW WKDW ZH LGHQWLILHG DQ LPSDLUPHQW WR RXU
                     LQGHSHQGHQFH LQ DSSHDUDQFH )ROORZLQJ FRPSOHWLRQ RI RXU UHYLHZ
                     LW FDPH WR RXU DWWHQWLRQ WKDW D IDPLO\ PHPEHU RI D VHQLRU 2,*
                     RIILFLDO ZDV HPSOR\HG E\ DQ HQWLW\ DVVRFLDWHG ZLWK WKLV LQVSHFWLRQ
                     :H WRRN VWHSV WR UHHYDOXDWH WKH HYLGHQFH VXSSRUWLQJ RXU ILQGLQJV
                     DQG FRQFOXVLRQV ,Q RXU RSLQLRQ WKH LPSDLUPHQW WR RXU
                     LQGHSHQGHQFH LQ DSSHDUDQFH GLG QRW DIIHFW WKH ILQGLQJV DQG
                     FRQFOXVLRQV GHYHORSHG GXULQJ WKLV LQVSHFWLRQ

                     46, UHTXLUHV WKDW ZH DGHTXDWHO\ SODQ DQG SHUIRUP WKH LQVSHFWLRQ WR
                     REWDLQ VXIILFLHQW FRPSHWHQW DQG UHOHYDQW HYLGHQFH WR SURYLGH D
                     UHDVRQDEOH EDVLV IRU UHDFKLQJ FRQFOXVLRQV FRQVLVWHQW ZLWK
                     LQVSHFWLRQ REMHFWLYHV :H EHOLHYH WKDW WKH HYLGHQFH REWDLQHG
                     SURYLGHV D UHDVRQDEOH EDVLV IRU RXU ILQGLQJV DQG FRQFOXVLRQV EDVHG
                     XSRQ RXU LQVSHFWLRQ REMHFWLYHV DQG WKDW WKH LPSDLUPHQW WR RXU
                     LQGHSHQGHQFH LQ DSSHDUDQFH GLG QRW DIIHFW WKLV HYLGHQFH RU DQ\
                     ILQGLQJV DQG FRQFOXVLRQV


              Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                            Page 22
Appendix B
Management Comments to the Draft Report




             Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                           Page 23
Appendix B
Management Comments to the Draft Report




             Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                           Page 24
Appendix B
Management Comments to the Draft Report




             Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                           Page 25
Appendix C
Timeline of Events

      Date                                                      Event
                        $ JXDUG UHWULHYHV D EDJ FRQWDLQLQJ DQ ,(' DQG EULQJV LW LQWR WKH 0F1DPDUD
     2/26/11
                        %XLOGLQJ
    3/18/11             $Q )36 ,QVSHFWRU VFUHHQV WKH EDJ DQG GHWHUPLQHV WKDW LW PD\ FRQWDLQ DQ ,('
    3/21/11             '(&2 PDQDJHPHQW DQG )36 RIILFLDOV PHHW WR GLVFXVV WKH ,('
    3/21/11             )36¶ &275 QRWLILHV WKH FRQWUDFWLQJ RIILFHU DERXW WKH ,('¶V H[LVWHQFH
 3/22/11–5/2/11         '(&2 LQFUHDVHV VXSHUYLVRU\ VWDIILQJ DW WKH 0F1DPDUD %XLOGLQJ
                        )36 XSGDWHV SRVW RUGHUV IRU VHFXULW\ FRQVROH WR LQFOXGH IRXQG SURSHUW\
     3/22/11
                        SURFHGXUHV
                        %\ WKLV GDWH '(&2 KDV VXVSHQGHG RQH HPSOR\HH LQFUHDVHG TXDOLW\ FRQWURO
     3/24/11            LQVSHFWLRQV DQG EHJXQ D UHYLHZ RI DOO SRVW RUGHUV DQG VWDQGDUG RSHUDWLQJ
                        SURFHGXUHV ZLWK DOO RI LWV HPSOR\HHV LQ 0LFKLJDQ
                        )36¶ $FTXLVLWLRQ 'LYLVLRQ LVVXHV D OHWWHU RI FRQFHUQ WR '(&2 SURYLGLQJ QRWLFH
     3/25/11
                        WKDW )36 EHOLHYHV FRQWUDFWXDO YLRODWLRQV RFFXUUHG DQG UHTXHVWLQJ D UHVSRQVH
                        )36 LVVXHV  UHSRUWV FDOOHG SRVW LQVSHFWLRQ IRUPV GHVFULELQJ WKH DFWLRQV RI
 3/28/11–3/29/11
                        '(&2 HPSOR\HHV GXULQJ WKH  GD\V WKH ,(' ZDV LQ WKH 0F1DPDUD %XLOGLQJ
                        '(&2 LQWHUYLHZV HPSOR\HHV WR GHWHUPLQH WKHLU LQWHUDFWLRQV ZLWK WKH ,('
 3/28/11–4/1/11
                        GXULQJ WKH  GD\V LW ZDV LQ WKH 0F1DPDUD %XLOGLQJ
                        '(&2 SURYLGHV )36 ZLWK D FRUUHFWLYH DFWLRQ SODQ LQ UHVSRQVH WR )36¶ OHWWHU RI
     3/30/11
                        FRQFHUQ
 3/31/11–4/2/11         (LJKW\ILYH JXDUGV UHFHLYH  KRXUV RI )36SURYLGHG ZHDSRQV GHWHFWLRQ WUDLQLQJ
                        '(&2 SURYLGHV )36 ZLWK UHVXOWV RI HPSOR\HH LQWHUYLHZV DQG LQIRUPV )36 RI
     4/1/11
                        SURSRVHG SHUVRQQHO DFWLRQV
 4/5/11–4/14/11         '(&2 SURYLGHV )36 ZLWK DGGLWLRQDO GHWDLOV RI LWV FRUUHFWLYH DFWLRQ SODQ
     4/14/11            7KH FRQWUDFWLQJ RIILFHU DVVHVVHV D FRQWUDFW GHGXFWLRQ LQ WKH DPRXQW RI         
     4/15/11            7KH FRQWUDFWLQJ RIILFHU DSSRLQWV D QHZ )36 &275
4/15/11 – 8/10/11       )36 FRQGXFWV DQ LQWHUQDO DXGLW RI 5HJLRQ  RSHUDWLRQV DQG LVVXHV LWV UHSRUW
     4/30/11            '(&2 FRPSOHWHV DQ LQWHUQDO UHYLHZ RI LWV RSHUDWLRQV
                        '(&2 SURYLGHV )36 ZLWK WKH UHVXOWV RI DQ DXGLW SHUIRUPHG E\ D WKLUG SDUW\
     5/23/11
                        UHJDUGLQJ WKH ,('
     6/30/11            )36 LVVXHV D  PRQWK RUGHU IRU FRQWLQXHG JXDUG VHUYLFHV LQ 0LFKLJDQ
     8/10/11            '(&2 SURYLGHV )36 ZLWK D TXDUWHUO\ UHSRUW RQ LWV DFWLYLW\ XQGHU WKH FRQWUDFW
                        )36 LVVXHV SURFHGXUHV IRU KDQGOLQJ VHL]HG IRUIHLWHG DEDQGRQHG DQG XQFODLPHG
     9/16/11
                        SHUVRQDO SURSHUW\
    9/22/11             )36 LVVXHV D  PRQWK RUGHU IRU FRQWLQXHG JXDUG VHUYLFHV LQ 0LFKLJDQ
    11/11/11            '(&2 SURYLGHV )36 ZLWK D TXDUWHUO\ UHSRUW RQ LWV DFWLYLW\ XQGHU WKH FRQWUDFW
    12/22/11            )36 LVVXHV D  PRQWK RUGHU IRU FRQWLQXHG JXDUG VHUYLFHV LQ 0LFKLJDQ
                        )36 ILQDOL]HV LWV UDWLQJ RI '(&2¶V SHUIRUPDQFH IURP -XO\  WKURXJK -XQH
     1/16/12
                        




                   Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                                 Page 26
        Appendix D
        Breaches as Listed in FPS’ Letter of Concern

                     Breaches Listed in FPS’ Letter of Concern                                  Facts
                  Section 6.3 Typical Duties paragraph E –
                  “Security guards shall be responsible for
                  maintaining logs, reports, and files of all incidents    The guard breached this clause of the
                  and occurrences encountered during the patrol            SOW because his assessment that the
                  tour. Patrol duties will be performed in a               bag was found property indicates that he
                  professional manner, with the security guards            did not properly observe his
                  responsible for observing the environment, and,          environment.
                  when necessary, questioning those persons whose
                  activities arouse suspicion.”
                  Section 6.3.1 Access/Egress Posts-paragraph F            The guard’s actions were breaches
                  which states in pertinent part – “Security guards        because post orders state that he should
                  shall perform package inspections when and as            have avoided contact with the bag.
                  directed by the post orders as directed by the           Instead, he conducted a physical
                  COTR in the event of an emergency or an elevated         inspection of the bag and brought it into
                  security posture.”                                       the building.
Clauses from      Section 6.3.12 Reports, Records and Testimony
the Contract’s    paragraph A – “Security guards shall prepare and
Statement of      maintain required reports in accordance with the
Work              post orders regarding security-related issues, such
                  as accidents, fires, bomb threats, unusual incidents
                  and unlawful acts and provide these reports to
                  those officials specified by the COTR.”


                  Section 6.3.12 Reports, Records and Testimony            The guard who brought the bag
                  paragraph B – “While on duty Security guards             containing the IED into the building
                  shall verbally report threatening circumstances and      breached the SOW and post orders
                  potentially threatening activities they observe to       because he did not notify the Battle
                  the FPS MegaCenter and when possible to the              Creek MegaCenter of the suspicious
                  COTR. Whenever possible, [guards] are                    package. Instead, he completed an
                  encouraged to report a serious problem before            incident report in which he described
                  responding so that they may receive all necessary        the bag as found property instead of a
                  backup and support to lessen or eliminate the            suspicious item.
                  potential threat.”

                  Reporting methods/Procedures – “[The guard is]
                  to check post order book and additional
Clauses from      memoranda and pass down information from
the Post Orders   previous shifts for any special instructions. All
                  offenses and incidents will be reported to the FPS
                  Battle Creek MegaCenter immediately
                                      ”




                         Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                                       Page 27
        Appendix D
        Breaches as Listed in FPS' Letter of Concern

                  Suspicious Object – “Notification procedures
                                                                           The guard breached the post order
                  require immediate contact to the Battle Creek
                                                                           because he did not contact the Battle
                  MegaCenter; keep everyone away from the object;
                                                                           Creek MegaCenter and did not ensure
                  use
                                                                           that other people did not come into
                                                                           close proximity with the bag.
                  assist FPS with evacuation as needed.”
                  Recording Departure/End of Duty Tour –
                  “[Guards] shall not leave their post until properly
Clauses from      relieved. In the event that the post has no relief,
the Post Orders   the [guard] shall not depart until the end of the tour
Continued         of duty as written in the post orders. If an unusual
                  circumstance or emergency occurs which will
                                                                           The guard did not breach these post
                  warrant the [guard] to leave his post, the [guard]
                                                                           orders. We could not substantiate FPS’
                  will contact the supervisor on duty and/or the FPS
                                                                           claim that the guard was not relieved
                  MegaCenter for instruction. [Guards] shall log out
                                                                           when he departed his fixed post to
                  on the Form 139; thoroughly brief his/her relief on
                                                                           retrieve the bag that contained the IED.
                  any pertinent information or procedural changes
                                                                           According to DECO, a supervisor said
                  directed by competent authority and ensure that
                                                                           that she relieved the guard while he
                  any written reports, completed records/forms or
                                                                           retrieved the bag from outside.
                  document to be picked up by or mailed to FPS are
                  kept in a safe, secure area until picked up by
                  authorize FPS personnel.”
                  “The [guard] will at no time abandon his/her post
                  without proper relief.”




                         Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                                       Page 28
Appendix E
Discipline That Resulted From the IED Incident

  (PSOR\HH        ,QYROYHPHQW :LWK WKH %DJ &RQWDLQLQJ WKH ,('                        'LVFLSOLQH

                /RRNHG LQVLGH WKH EDJ DQG EURXJKW LW LQVLGH WKH
                EXLOGLQJ 7KLV JXDUG GLG QRW WUHDW WKH EDJ DV
                VXVSLFLRXV DQG GHWHUPLQHG WKDW LW ZDV IRXQG
Employee 1                                                                 7HUPLQDWHG
                SURSHUW\ 7KLV JXDUG XVHG WKH ZURQJ LQFLGHQW UHSRUW
                IRUP WR GHVFULEH WKH EDJ DQG KH GLG QRW FDOO WKH
                0HJD&HQWHU

                ; UD\HG WKH EDJ LQFRUUHFWO\ LGHQWLILHG WKH FRQWHQWV
Employee 2      DV                         DQG UHWXUQHG LW WR WKH         7HUPLQDWHG
                IRXQG SURSHUW\ DUHD
                ; UD\HG WKH EDJ LQFRUUHFWO\ LGHQWLILHG WKH FRQWHQWV
Employee 3      DV                   DQG UHWXUQHG LW WR WKH IRXQG         7HUPLQDWHG
                SURSHUW\ DUHD
                7KLV VHUJHDQW UHOLHYHG WKH JXDUG ZKLOH KH EURXJKW
                WKH EDJ FRQWDLQLQJ WKH ,(' LQWR WKH EXLOGLQJ DQG           5HVLJQHG SHQGLQJ
Employee 4
                LQVWUXFWHG WKH JXDUG WR ZULWH D UHSRUW LI QR RQH           WHUPLQDWLRQ
                FODLPHG WKH EDJ E\ WKH HQG RI WKH VKLIW
                $ JXDUG DVNHG WKLV VHUJHDQW DERXW WKH EDJ DQG WKH
                                                                           3URSRVHG GD\
                VHUJHDQW GLG QRW NQRZ DQ\WKLQJ DERXW LW 7KH
Employee 5                                                                 VXVSHQVLRQ KDV QRW EHHQ
                VHUJHDQW ODWHU DVNHG D FRQVWUXFWLRQ VXSHUYLVRU WR DVN
                                                                           VHUYHG
                RWKHUV DERXW WKH EDJ

                6DZ WKH EDJ LQ WKH IRXQG SURSHUW\ DUHD DQG ORRNHG
                LQVLGH LW 7KHQ WRRN WKH EODFN ER[ RXW RI WKH EDJ          6HUYHG SDUWLDO VXVSHQVLRQ
Employee 6
                DQG ³PRYHG LW DURXQG´ DQG WKHQ SXW WKH EDJ EDFN LQ         EHIRUH EHFRPLQJ GHFHDVHG
                WKH IRXQG SURSHUW\ DUHD

                                                                            GD\ VXVSHQVLRQ VHUYHG
                /RRNHG LQVLGH WKH EDJ VDZ WKDW LW ZDV D EODFN ER[
Employee 7                                                                 5RWDWHG WR D GLIIHUHQW
                DQG WKHQ SXW WKH EDJ EDFN
                                                                           EXLOGLQJ
                'LFWDSKRQHG WKH LQFLGHQW UHSRUW WR WKH 0HJD&HQWHU
                                                                           5HVLJQHG IRU RWKHU UHDVRQV
                EHFDXVH WKH JXDUG ZKR EURXJKW WKH EDJ FRQWDLQLQJ
Employee 8                                                                 EHIRUH VHUYLQJ D SURSRVHG 
                WKH ,(' LQVLGH WKH EXLOGLQJ XVHG WKH ZURQJ IRUP
                                                                           GD\ VXVSHQVLRQ
                7KLV JXDUG DVVXPHG WKH EDJ ZDV IRXQG SURSHUW\
                7RRN WKH EODFN ER[ RXW RI WKH EDJ VKRRN LW DQG
                DVNHG DQRWKHU HPSOR\HH DQG D VXSHUYLVRU DERXW WKH          7HUPLQDWHG IRU RWKHU
Employee 9      EDJ 7KH VXSHUYLVRU WROG WKLV JXDUG WKDW KH GLG QRW        UHDVRQV EHIRUH VHUYLQJ D
                NQRZ DQ\WKLQJ DERXW WKH EDJ $VVXPHG LW ZDV                SURSRVHG  GD\ VXVSHQVLRQ
                IRXQG SURSHUW\




              Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                            Page 29
Appendix E
Discipline That Resulted From the IED Incident

                /RRNHG LQVLGH WKH EDJ VDZ WKH EODFN ER[ DQG WROG D
                VXSHUYLVRU DERXW LW :URWH D VWDWHPHQW WKDW VDLG D
                                                                     3URSRVHG  GD\ VXVSHQVLRQ
Employee 10     VXSHUYLVRU DQG DQRWKHU HPSOR\HH [ UD\HG WKH EDJ
                                                                     KDV QRW EHHQ VHUYHG
                DQG IDLOHG WR LGHQWLI\ WKH FRQWHQWV DV VXVSLFLRXV
                7KH EDJ ZDV UHWXUQHG WR WKH IRXQG SURSHUW\ DUHD

                5HPHPEHUV WKH EDJ DQG VDLG WKDW RWKHUV OHIW WKHLU
                OXQFKHV ZKHUH WKH EDJ ZDV ORFDWHG LQ WKH IRXQG
                SURSHUW\ DUHD 6DLG WKDW )36 ZDV DW WKH SRVW
Employee 11                                                                 GD\ VXVSHQVLRQ VHUYHG
                 SHUFHQW RI WKH WLPH GDLO\ DQG WKH\ GLG QRW ILQG
                WKH EDJ VXVSLFLRXV VR WKLV JXDUG GLG QRW WKLQN WR GR
                DQ\WKLQJ HOVH ZLWK WKH EDJ
                5HPHPEHUV WKH EDJ DQG WKRXJKW LW ZDV IRXQG
                                                                           3URSRVHG  GD\ VXVSHQVLRQ
Employee 12     SURSHUW\ VLQFH LW ZDV ZLWK RWKHU IRXQG SURSHUW\ LQ D
                                                                           QRW VHUYHG
                ³VDIH DUHD´
                6FDQQHG WKH EDJ DQG EURXJKW WKH VXVSLFLRXV QDWXUH          3URSRVHG  GD\ VXVSHQVLRQ
Employee 13
                RI LW WR WKH DWWHQWLRQ RI DQ )36 ,QVSHFWRU                QRW VHUYHG

                7KRXJKW WKH EDJ ZDV IRXQG SURSHUW\ WKDW ZDV ZLWK D         3URSRVHG  GD\ VXVSHQVLRQ
Employee 14
                ORW RI RWKHU IRXQG SURSHUW\                               QRW VHUYHG

                1RWLFHG WKH EDJ EHKLQG WKH GHVN ZLWK RWKHU IRXQG           3URSRVHG  GD\ VXVSHQVLRQ
Employee 15
                SURSHUW\ LQ D ³VDIH DUHD´                                 QRW VHUYHG
                                                                           5HVLJQHG IRU RWKHU UHDVRQV
                7KRXJKW WKH EDJ ORRNHG OLNH D OXQFK ,W ZDV ZLWK
Employee 16                                                                EHIRUH VHUYLQJ D  GD\
                RWKHU IRXQG SURSHUW\ LQ D ³VDIH DUHD´
                                                                           VXVSHQVLRQ
                7KRXJKW WKH EDJ ZDV IRXQG SURSHUW\ ZLWK WKH RWKHU
Employee 17                                                                 GD\ VXVSHQVLRQ VHUYHG
                LWHPV LQ D ³VDIH DUHD´
                                                                           :ULWWHQ ZDUQLQJ ILOHG
                1RWLFHG WKH EDJ DQRWKHU HPSOR\HH DGYLVHG WKLV
Employee 18                                                                7HUPLQDWHG IRU RWKHU
                JXDUG WKDW DQ LQFLGHQW UHSRUW ZDV EHLQJ JHQHUDWHG
                                                                           UHDVRQV
                6FDQQHG WKH EDJ DQG EURXJKW WKH VXVSLFLRXV QDWXUH
Employee 19                                                                :ULWWHQ ZDUQLQJ ILOHG
                RI LW WR WKH DWWHQWLRQ RI DQ )36 ,QVSHFWRU

                'XULQJ WKLV JXDUG¶V ILUVW WLPH ZRUNLQJ WKH SRVW
                ZKHUH WKH EDJ ZDV VWRUHG VDZ WKH EDJ DQG WKRXJKW
                WKDW LW ZDV ORFDWHG ZKHUH HPSOR\HHV SXW WKHLU EDJV
Employee 20                                                                :ULWWHQ ZDUQLQJ ILOHG
                7KLV JXDUG DWWHPSWHG WR SXW D EDJ LQ WKDW ORFDWLRQ
                EXW DQRWKHU HPSOR\HH WROG WKLV JXDUG QRW WR EHFDXVH
                WKDW DUHD ZDV IRU IRXQG SURSHUW\

Employees       'LG QRW VHH RU KDYH NQRZOHGJH RI WKH EDJ                   1R SHUVRQQHO DFWLRQ
21–39           FRQWDLQLQJ WKH ,('                                        SURSRVHG




              Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                            Page 30
Appendix E
Discipline That Resulted From the IED Incident

                                                                            GD\ UHYLHZ RI SRVLWLRQ
                'LG QRW VHH RU KDYH NQRZOHGJH RI WKH EDJ                   DQG DVVRFLDWHG GXWLHV
Employee 40
                FRQWDLQLQJ WKH ,('                                        5HDVVLJQHG IURP FDSWDLQ WR
                                                                           JXDUG
                                                                            GD\ UHYLHZ RI SRVLWLRQ
                'LG QRW VHH RU KDYH NQRZOHGJH RI WKH EDJ
Employee 41                                                                DQG DVVRFLDWHG GXWLHV 1HZ
                FRQWDLQLQJ WKH ,('
                                                                           MRE GHVFULSWLRQ
                                                                            GD\ UHYLHZ RI SRVLWLRQ
                'LG QRW VHH RU KDYH NQRZOHGJH RI WKH EDJ
Employee 42                                                                DQG DVVRFLDWHG GXWLHV 1HZ
                FRQWDLQLQJ WKH ,('
                                                                           MRE GHVFULSWLRQ
                                                                            GD\ UHYLHZ RI SRVLWLRQ
                                                                           DQG DVVRFLDWHG GXWLHV
                'LG QRW VHH RU KDYH NQRZOHGJH RI WKH EDJ
Employee 43                                                                5HDVVLJQHG IURP FRQWUDFW
                FRQWDLQLQJ WKH ,('
                                                                           PDQDJHU WR TXDOLW\ FRQWURO
                                                                           PDQDJHU




              Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                            Page 31
Appendix F
Major Contributors to this Report

                     :LOOLDP 0F&DUURQ &KLHI ,QVSHFWRU
                     3DXO + %HUJVWUDQG 6HQLRU ,QVSHFWRU
                     /LQGVD\ . &ODUNH ,QVSHFWRU
                     -DVPLQH . 'DYLV ,QVSHFWRU




                     Department of Homeland Security



              Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                            Page 32
Appendix G
Report Distribution

                      6HFUHWDU\
                      'HSXW\ 6HFUHWDU\
                      &KLHI RI 6WDII
                      'HSXW\ &KLHI RI 6WDII
                      *HQHUDO &RXQVHO
                      ([HFXWLYH 6HFUHWDULDW
                      'LUHFWRU *$22,* /LDLVRQ 2IILFH
                      $VVLVWDQW 6HFUHWDU\ IRU 2IILFH RI 3ROLF\
                      $VVLVWDQW 6HFUHWDU\ IRU 2IILFH RI 3XEOLF $IIDLUV
                      $VVLVWDQW 6HFUHWDU\ IRU 2IILFH RI /HJLVODWLYH $IIDLUV

                      Office of Management and Budget

                      &KLHI +RPHODQG 6HFXULW\ %UDQFK
                      '+6 2,* %XGJHW ([DPLQHU

                      Congress

                      &RQJUHVVLRQDO 2YHUVLJKW DQG $SSURSULDWLRQV &RPPLWWHHV DV
                      DSSURSULDWH
                      5HSUHVHQWDWLYH %HQQLH * 7KRPSVRQ




              Effects of a Security Lapse on FPS’ Michigan Guard Services Contract

                                            Page 33
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
